<html>
<title> - EXAMINE PORT POLLUTION AND THE NEED FOR ADDITIONAL CONTROLS ON LARGE SHIPS</title>
<body><pre>[Senate Hearing 110-1110]
[From the U.S. Government Publishing Office]






                                                       S. Hrg. 110-1110

 EXAMINE PORT POLLUTION AND THE NEED FOR ADDITIONAL CONTROLS ON LARGE 
                                 SHIPS

=======================================================================

                             FIELD HEARING

                               BEFORE THE

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                      AUGUST 9, 2007-SAN PEDRO, CA

                               __________

  Printed for the use of the Committee on Environment and Public Works




<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>




       Available via the World Wide Web: http://www.fdsys.gpo.gov

                               __________

                  U.S. GOVERNMENT PRINTING OFFICE
61-981 PDF                WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001







               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                       ONE HUNDRED TENTH CONGRESS
                             FIRST SESSION

                  BARBARA BOXER, California, Chairman
MAX BAUCUS, Montana                  JAMES M. INHOFE, Oklahoma
JOSEPH I. LIEBERMAN, Connecticut     JOHN W. WARNER, Virginia
THOMAS R. CARPER, Delaware           GEORGE V. VOINOVICH, Ohio
HILLARY RODHAM CLINTON, New York     JOHNNY ISAKSON, Georgia
FRANK R. LAUTENBERG, New Jersey      DAVID VITTER, Louisiana
BENJAMIN L. CARDIN, Maryland         JOHN BARRASSO, Wyoming<SUP>1</SUP>
BERNARD SANDERS, Vermont             LARRY E. CRAIG, Idaho
AMY KLOBUCHAR, Minnesota             LAMAR ALEXANDER, Tennessee
SHELDON WHITEHOUSE, Rhode Island     CHRISTOPHER S. BOND, Missouri

       Bettina Poirier, Majority Staff Director and Chief Counsel
                Andrew Wheeler, Minority Staff Director
                                 ------                                

<SUP>1</SUP>Note: During the 110th Congress, Senator Craig 
    Thomas, of Wyoming, passed away on June 4, 2007. Senator John 
    Barrasso, of Wyoming, joined the committee on July 10, 2007.














                            C O N T E N T S

                              ----------                              
                                                                   Page

                             AUGUST 9, 2007
                           OPENING STATEMENTS

Boxer, Hon. Barbara, U.S. Senator from the State of California...     1

                               WITNESSES

Solis, Hon. Hilda L., U.S. Representative from the State of 
  California.....................................................     4
    Prepared statement...........................................     6
Nichols, Mary D., chairman, California Air Resources Board.......     8
Villaraigosa, Hon. Antonio R., Mayor, City of Los Angeles........    10
    Prepared statement...........................................    11
Foster, Hon. Bob, Mayor, City of Long Beach......................    13
    Prepared statement...........................................    15
Wilson, S. Roy, supervisor, Riverside County, 4th District, 
  Governing Board Vice Chairman, South Coast Air Quality 
  Management District............................................    16
    Prepared statement...........................................    18
Freeman, David, president, Los Angeles Harbor Commission.........    23
Knatz, Geraldine, Ph.D., executive director, Port of Los Angeles.    24
    Prepared statement...........................................    26
Steinke, Richard, executive director, Port of Long Beach.........    29
    Prepared statement...........................................    31
Avol, Edward L., School of Medicine, University of Southern 
  California.....................................................    32
    Prepared statement...........................................    34
Miller, John G., M.D., FACEP, San Pedro Community................    37
    Prepared statement...........................................    38

 
 EXAMINE PORT POLLUTION AND THE NEED FOR ADDITIONAL CONTROLS ON LARGE 
                                 SHIPS

                        THURSDAY, AUGUST 9, 2007

                               U.S. Senate,
         Committee on Environment and Public Works,
                                                     San Pedro, CA.
    The committee met, pursuant to notice, at 10:13 a.m. in the 
Harbor Commissioners Hearing Room of the Port of Los Angeles 
Administrative Building, 425 South Palos Verdes Street, San 
Pedro, CA, Hon. Barbara Boxer (chairman of the committee) 
presiding.
    Present: Senator Boxer.

OPENING STATEMENT OF HON. BARBARA BOXER, U.S. SENATOR FROM THE 
                      STATE OF CALIFORNIA

    Senator Boxer. The hearing will come to order. I want to 
welcome everyone to today's hearing about a critically 
important issue for this region and other port communities 
around the Nation, how to dramatically reduce port pollution at 
the same time that shipping undergoes rapid growth.
    Our port communities must be protected from port-related 
pollution and other problems, even as ports grow to accommodate 
more trade. Today, we are here to discuss an issue that we all 
care deeply about: working together to protect the health of 
our people from air pollution.
    Like you, I am especially concerned about the effects of 
air pollution on the health of those who are most vulnerable, 
our children, our elderly, and people with asthma or other 
diseases.
    I will never forget when I first saw a filter taken from an 
air monitor in Long Beach, not far from where we're meeting 
today.
    Could you tell them to keep it down back there?
    When the filter went in, it was pure white. I want to show 
this to you. It was pure white. Twenty-four hours later, it was 
totally black. Now, this was taken at Hudson School--24 hours 
later, it went from pure white to black. That's how much 
pollution a child's lungs at that elementary school would 
receive in 3\1/2\ months' time. I know we all agree, we're not 
doing enough to make this better. That is why we're meeting 
here today for this important hearing on what we can do about 
air pollution from ports, and particularly from large ships.
    I'm very pleased we'll be hearing from Federal, State, and 
local officials who are spearheading efforts to clean up our 
ports. I'm going to quickly review those who will be speaking. 
I am so grateful to all of you, because, you know, suppose you 
held a hearing and the people you really wanted to hear from 
didn't come. You have responded, and I am very, very grateful. 
Hon. Hilda Solis, Congresswoman from California's 32d District; 
Hon. Mary D. Nichols, chairman of the California Air Resources 
Board; Mayor Antonio Villaraigosa, city of Los Angeles; Mayor 
Bob Foster, city of Long Beach; Supervisor S. Roy Wilson, 
Riverside County, 4th District, Governing Board vice chairman, 
South Coast Air Quality Management District; Dr. Geraldine 
Knatz, executive director, Port of Los Angeles; Mr. Richard 
Steinke, executive director, Port of Long Beach; Professor 
Edward Avol, School of Medicine, University of Southern 
California; Dr. John G. Miller, San Pedro community. We know 
that David Freeman will be also on our panel, making a very 
important introduction.
    I also want to recognize Assemblywoman Laura Richardson, 
who is with us. Would you stand up, Assemblywoman? We're very 
pleased to have you here.
    [Applause.]
    Senator Boxer. You represent California's 55th Assembly 
District, and that includes the cities of Carson, Harbor City, 
Lakewood, Long Beach, and Wilmington. I, of course, and looking 
forward to working with you.
    Furthermore, I want to take this opportunity to recognize 
the tremendous contribution of local citizen groups. How much 
we owe them. They've been instrumental in spurring much-needed 
action to reduce port pollution. Their continued involvement is 
critical to ensuring effective pollution-control programs. 
These groups include Coalition for a Safe Environment, Sierra 
Club Harbor Vision Task Force, Coalition for Clean Air, Long 
Beach Alliance for Children with Asthma, Communities for a 
Better Environment, East Yard Communities for Environmental 
Justice, Center for Community Action, and Environmental 
Justice, Coalition for Clean and Safe Ports, Communities for 
Clean Ports, Green L.A. Port Work Group. We really do thank you 
so much. Truly, the work of citizens groups just make it 
possible for me to do my job, because you come and tell me what 
I need to be doing, and I listen.
    This hearing is about finding and advancing smart solutions 
to port-related issues. We recognize that ports are powerful 
economic engines for their regions, their States, and the 
Nation. They spur business development, and they create jobs. 
Our own ports of Los Angeles and Long Beach illustrate that 
point. Together, they handle--and this is an amazing number--
nearly 45 percent of the containerized cargo imported into 
these United States, and they help sustain the economic 
vitality of our region. But ports are also a significant source 
of pollution as ships come and go, harbor equipment load and 
unload cargo, and trucks and trains move the cargo to and from 
the docks. How well we know that in the inland empire.
    In Southern California, port activities are major 
contributors to smog and soot pollution that are responsible 
for 5,400 premature deaths, 2400 hospitalizations, 140,000 
incidences of asthma and respiratory problems, and nearly 1 
million lost workdays per year. The diesel engines so prevalent 
in ports also emit toxic air pollutants that can cause cancer 
and other life-threatening diseases. These harmful effects are 
disproportionally felt by low-income families. Some of the 
impacts of this pollution have been pointed out in a letter I 
received from the Long Beach Alliance for Children with Asthma, 
representing thousands of moms in the community concerned about 
the effects of air contamination on their children.
    For example, one mother, named Martha, from the Alliance 
for Children with Asthma, understands the issue firsthand. 
Martha says that, after two of her sons were diagnosed with 
asthma, she became active in the community, working to raise 
awareness about the dangers of the disease, and urging curbs on 
air pollution in the area. Martha says she was also recently 
diagnosed with asthma, herself. She recalls many frightening 
visits to the emergency room when her son, Jose, then only 4 
years old, struggled to breathe. ``We were rushing him to the 
hospital by car, and it's really sad to see your son almost die 
because he can't breathe. His lips and all of his body turned 
purple. If people and politicians knew how it feels, they would 
cry with the mothers of children with asthma. They have to miss 
school when they're sick, and I have to miss work to be in the 
emergency room,'' she says. ``It's very difficult. It has 
affected me in every way.''
    Now, those words are from the heart, and they are from 
reality. We have to address this mom. That's what we're 
supposed to do.
    The good news is that we're beginning to see signs of 
progress recently in reducing port pollution here in Southern 
California. The Ports of Los Angeles and Long Beach are working 
with State and local officials to take steps that will move us 
toward cleaning up port pollution.
    Now, I can tell you, I have had visits in my office from 
mayors, from those of you working to clean the air, and these 
meetings have been heartfelt, I can assure you of that.
    California State and local agencies have made vital 
contributions to port cleanup by establishing first-ever 
controls on various sources of port pollution. The Federal 
Government has begun to address some of the sources of port 
emissions. But much more progress is needed. Shipping is 
expected to double and even triple in the next two decades as 
the result of global trade agreements, and more shipping will 
bring more pollution unless additional action is taken now.
    There's a significant source of port pollution that has, so 
far, largely escaped adequate regulation. Large oceangoing 
vessels, such as container ships, bulk carriers, and tankers, 
they are the fastest growing, least regulated sources of air 
pollution in the United States today. In Southern California, 
oceangoing vessels are already the largest contributor to the 
region's soot-forming emissions of sulfur oxides. By 2023, 
they're expected to be the largest contributor to the region's 
smog-forming emissions of nitrogen oxides. Oceangoing ships are 
subjected to international standards, but, let's be clear, 
these standards require virtually no control, and our own 
Federal Government has yet to step up to the task of requiring 
these large polluters to make significant emission reductions. 
The Federal Government must regulate these ships. Most 
oceangoing vessels are foreign-owned, and foreign flagships 
emit almost 90 percent of the vessel pollution in the United 
States.
    Rather than using existing Clean Air Act authority, the 
Bush administration is waiting for international negotiations 
to produce tighter standards. Unfortunately, these negotiations 
were recently delayed for at least another year. Now, Martha 
and her family must not wait another year. At this point, we 
have no assurance that such an agreement will be sufficient to 
protect other--our people's health. We must stop wasting time. 
With ship traffic increasing and new ships being built to meet 
the demand, we must set standards now so that shipbuilders and 
operators know what they need to do to clean up this pollution. 
That's why Senator Feinstein and I introduced the Marine Vessel 
Emission Reduction Act, to require oceangoing vessels----
    [Applause.]
    Senator Boxer. Thank you. That's why Senator Feinstein and 
I introduced the Marine Vessel Emission Reduction Act, to 
require oceangoing vessels visiting U.S. ports to use cleaner 
fuel and cleaner engines, whether they are flagged in the 
United States or elsewhere.
    On the House side, I want to thank Representatives Hilda 
Solis, Jane Harmon, Lois Capps, Henry Waxman, Loretta Sanchez, 
Adam Schiff, Grace Napolitano, Howard Berman, Diane Watson, and 
Maxine Waters, who have introduced an identical bill to clean 
up ship pollution.
    Our bill will require oceangoing vessels to dramatically 
lower the sulfur content of the fuel they use as they travel to 
and from our ports within 200 nautical miles of the coast. 
Beginning as early as 2010, fuel sulfur content would drop--and 
listen to this number--fuel sulfur content would drop from an 
average level of 27,000 parts per million to 1,000 parts per 
million, making a huge difference for our air quality. It would 
also significantly reduce emissions from both new and existing 
engines, beginning in 2012, by requiring the use of the most 
advanced technologies. Reducing ship emissions on the bill's 
schedule would make a much-needed contribution to this region's 
effort to meet Federal soot and smog standards on time. We must 
work harder to do everything we can to make progress on this 
issue.
    In closing, I believe it is our moral duty to protect the 
health of our children, people with asthma, and the people of 
this community from ship and port air pollution. I am pleased 
to join with everyone here to find solutions to this problem.
    Now it is my great pleasure to ask a wonderful 
Congresswoman to come forward, Hon. Hilda Solis.
    Thank you so much, Congresswoman, for being with us today.
    [Applause.]
    Senator Boxer. We're going to give our panelists 7 minutes, 
and then I'm going to have to cut you off, just because we 
don't have the time. So, can we put that clock back to 7? OK, 
we--fine. Go ahead. We'll give you an additional minute. It's 
at 6. Go ahead.

STATEMENT OF HON. HILDA L. SOLIS, U.S. REPRESENTATIVE FROM THE 
                      STATE OF CALIFORNIA

    Ms. Solis. Good morning, Chairman Boxer. I'm so pleased to 
be here and to see all the different advocacy groups together 
with our port authorities, our mayors, and also our local 
advocates, but people that really care and understand this 
issue.
    I know that the California Air Resources Board estimates, 
as you said earlier, 5,400 premature deaths. I think the thing 
that we have to keep in mind is that we're talking about real 
people, real lives, and loss of jobs, because people can't go 
to work if they're sick. According to the records I've seen, 
about 980,000 people lose days of work because of asthma and 
because of the pollution that surrounds their communities.
    Marine vessels and locomotives are the largest unregulated 
source, emitting more nitrogen oxides than all the refineries 
and powerplants, 350 of the largest stationary sources in the 
South Coast Air Basin. That is really atrocious.
    Many of the communities on the front lines of the pollution 
effort to combat that are environmental justice communities, 
and I believe we're very close to one right here, in San Pedro 
and Long Beach. They are not well equipped to deal with these 
kinds or problems and contaminants. In the communities I 
represent--East Los Angeles and the San Gabriel Valley--there 
are many poor communities and unstable environments that people 
have to live in. According to EPA, there have only been 43 
enforcement actions that were taken against 39 facilities in 
Los Angeles County between October 5 and May 2007. What does 
that tell you? EPA is not doing their job. I've included in my 
testimony figures, here, charts, to outline where those high 
contaminated areas are, where enforcement actions have been 
taken, and where they have not. So, I'd like to submit that for 
the record.
    According, also----
    Senator Boxer. Without objection, it will be done.
    Ms. Solis. According to EPA, 92 percent of people live 
within a 3-mile radius of these facilities. They're mostly 
minority, and 51 percent of those individuals live below the 
poverty line. Environmental conditions, as you know, 
significantly impact the quality of life and the health of our 
families. According to a recent study by the California Air 
Resources Board, persons residing near rail yards face an 
increased cancer risk associated with increased diesel 
emissions from expanding goods movements. So, we're talking 
about our rails that run through our communities, leaving the 
port and into our areas. The study found that residents in 
Commerce, CA, near Union Pacific, and three BNSF yards, are 70 
to 140 percent more likely to contract cancer from diesel soot 
than people in other parts of Los Angeles. Other communities 
near rail yards, such as those in Wilmington and Riverside 
County, are 11 to 26 percent more likely to contract cancer. At 
the same time the ports and rail yards negatively impact the 
health of our communities, they also play a large role in our 
economy, as we well know.
    The Ports of Los Angeles and Long Beach are the fifth 
largest in the world, and the Nation's busiest. Forty-three 
percent of the goods that come into the United States enter 
through these two ports. The amount of cargo handled by the 
ports is expected to triple in the next 15 years, and the value 
of goods traveling through these ports will increase by almost 
$400 billion in the next 15 years. Together, I believe--and we 
must ensure that our economy grows, but that our public health 
improves, that workers have safer environments and that costs 
associated with impacts of pollution on public health are 
reduced. As we grow our ports, we must also keep in mind that 
we must grow them green, environmentally clean. This includes 
vessels.
    Unfortunately, the Federal Government, as you stated, has 
failed to take action to protect the public health. A proposal 
by EPA, released in April 2007, would not control emissions 
from marine vessels such as container ships or tankers. It also 
fails to limit the sulfur content of fuels used in oceangoing 
ships, the largest source of sulfur oxides in the South Coast 
Air Basin.
    I also found that their proposed rule was very troubling. 
It did not, at one time, mention environmental justice 
protections for communities of color or that are underserved. 
So, there is the injustice, right there. Our EPA is charged 
with doing this, but they are failing us.
    [Applause.]
    Ms. Solis. Despite a recent announcement from EPA to ensure 
that agencies' environmental justice considerations are 
accurately described to the public when proposed, the final 
regulations were published after January 2007. Well, when the 
EPA just issued this rule on vessels, they mentioned nothing 
about environmental justice; yet, the law and the code says 
they have to. So, here we go again, they're reneging on their 
promises to our public.
    That's why I'm proud to be a lead sponsor of the U.S. House 
of Representatives H.R. 2548, the Marine Vessel Emissions 
Reduction Act of 2007. I want to thank you, and I want to thank 
Senator Feinstein, and I also want to thank the AQMD from our 
area, because they are really doing a lot more, in terms of 
enforcement and planning----
    [Applause.]
    Ms. Solis [continuing]. And have just been----
    Senator Boxer. If I could just say to the audience, I know 
that--I'm with you, I want to applaud, too. But when we have 
these hearings for the Senate, we do have a rule. If you could 
just--you can applaud people when they're introduced or when 
they're done, but if we could just not have the interruption, 
because it comes out of the time of our witness, and we need to 
hear, we need to listen. If you would just wait until they're 
done.
    Thank you.
    Ms. Solis. Again, I also want to reiterate my support for 
our cities that are involved, and also the mayors--the two 
mayors from Long Beach and Los Angeles--and also the 
Metropolitan Transit Authority, who recently came onboard as 
endorsing our legislation.
    I look forward to working with you, Senator Boxer, and I am 
so please to be here and to see the enthusiasm of our 
communities coming and pulling together. This is what the 
American public wants.
    Thank you, again, for the opportunity to be here and speak 
to your committee.
    [The prepared statement of Ms. Solis follows:]
    Statement of Hon. Hilda L. Solis, U.S. Representative from the 
                          State of California
    Good morning Chairwoman Boxer. Thank you for inviting me to testify 
today regarding the difficulties facing our communities as a result of 
pollution from marine vessels.
    The California Air Resources Board (CARB) estimates that each year 
there are 5,400 premature deaths, 2,400 hospitalizations, 140,000 cases 
of asthma, and 980,000 lost days of work as a result of poor air 
quality. Marine vessels and locomotives are the largest unregulated 
source, emitting more nitrogen oxides than all of the refineries, power 
plants and 350 other largest stationary sources in the South Coast Air 
Basin combined.
    Many of the communities on the front lines of this pollution are 
environmental justice communities, which are the least equipped to deal 
with the cumulative impacts of environmental contamination. In the 
communities I represent in East Los Angeles and the San Gabriel Valley, 
as in others across the country, poor environmental conditions are not 
equitably distributed.
    According to the EPA, 43 enforcement actions were taken against 39 
facilities in Los Angeles County between October 2005 and May 2007. 
Ninety-two percent of people living within a 3-mile radius of these 
facilities are minority and 51 percent live below the poverty level.
    Environmental conditions significantly impact the quality of life 
and the health of our families. According to a recent study by the 
California Air Resources Board, persons residing near railyards face an 
increased cancer risk associated with increased diesel emissions from 
expanding goods movement. The study found that residents in Commerce, 
California, near one Union Pacific and three BNSF yards, are 70 percent 
to 140 percent more likely to contract cancer from diesel soot than 
people in other parts of Los Angeles. Other communities near railyards, 
such as those in Wilmington and Riverside County, are 11 percent to 26 
percent more likely to contract cancer.
    At the same time that the ports and railyards negatively impact the 
health of our communities, they also play a large and growing role in 
our economy. The ports of Los Angeles and Long Beach are the 5th 
largest in the world and the Nation's busiest. Forty-three percent of 
goods that come into the United States enter through these ports. The 
amount of cargo handled by the ports is expected to almost triple in 
the next 15 years. The value of goods traveling through these ports 
will increase by more than $400 billion in the next 15 years.
    Together we can and must ensure that as our economy grows our 
public health improves, workers have a safer environment, and costs 
associated with impacts of pollution on public health are reduced. As 
we grow our ports, we must grow them green. This includes the vessels.
    Unfortunately, the Federal Government has failed to take action to 
protect public health. A proposal by the EPA released in April 2007, 
would not control emissions from marine vessels such as containerships 
and tankers. It also fails to limit the sulfur content of fuels used in 
oceangoing ships, the single largest source of sulfur oxides in the 
South Coast Air Basin.
    I also found this proposed rule troubling because of its lack of 
attention to environmental justice. Despite a recent announcement from 
the EPA that it will ``ensure that the Agency's environmental justice 
considerations are accurately described to the public when proposed and 
final regulations are published after January 2007,'' this proposal did 
not mention environmental justice once in its 800 pages.
    That is why I am proud to be the lead sponsor in the U.S. House of 
Representatives of H.R. 2548, the Marine Vessel Emissions Reduction Act 
of 2007. H.R. 2548 will reduce emissions from marine vessels at our 
Nation's ports, protecting our communities and other from unnecessary 
public health risks. I am pleased that you, along with introduced 
Senator Feinstein, have introduced the Senate companion. Together, with 
our Air Quality Management District, our cities, our Mayors, the 
Metropolitan Transit Authority, and our communities we can not only 
grow our ports--but grow them green.
    Thank you for your attention to this matter. I look forward to 
continuing to work with you to protect the health and welfare of all of 
our communities.

    Senator Boxer. Thank you. Could you stay a minute? I want 
to ask you a couple of questions.
    Congresswoman, you and I have been working on environmental 
justice issues for a while now. We work--when it comes to 
cleaning up perchlorate Superfund sites, it just seems that all 
roads lead to low-income communities that are underserved. So, 
I think we have an opportunity here, with some of the media 
here, because we just don't get enough, I don't think, 
attention paid to this environmental justice issue. I agree 
with you, in terms of the EPA. I have suggested they change 
their name from the Environmental Protection Agency to the 
Environmental Pollution Agency under this President, because 
we're constantly fighting, I mean, every step of the way.
    In terms of environmental justice--because I want to give 
you this platform for a moment here to talk about this--how do 
you relate the air pollution problems that are posed by our 
ports to the environmental justice issue? If you could talk 
about it.
    Ms. Solis. Well, the situation exists where you find low-
income communities of color that are situated, not by design, 
but perhaps because of job opportunity and the because the 
availability of housing that's at a much lower cost for these 
people that have to find whatever----
    Senator Boxer. Right.
    Ms. Solis [continuing]. Means is affordable to them. So, 
that's a question, there.
    But the real question for us is, Where does our 
Constitution provide rights, equal treatment under the law? 
That's where EJ--environmental justice legislation comes into 
play. It says, ``You will treat communities of color no 
differently from any other communities.'' I'm very pleased that 
Cabinet Member Mary Nichols is here, because she helped us work 
on that legislation in California. We were the first State in 
California to write that legislation. Now we're trying to get 
the Federal Government, some 10 years later, to now look back 
and say we need to institutionalize it so that communities in 
Mississippi, in New Orleans, that were hit by--hard hit by 
Katrina, as well as San Pedro, East Los Angeles, and the Bronx, 
all have equal treatment whenever there are sites that are 
going to be placed in their communities, that there be a 
balance, that there not be an overabundance of negative 
projects that can be harmful to your health, and that we give 
that balance and fairness, so people don't have to keep going 
to court to fight that, but that the law will respect them, as 
well. That's what we're fighting for. You and I have been 
working on this for over 15 years.
    Senator Boxer. Well, I so appreciate your being here. I'm 
so proud to work with you every day in the Congress. Thank you 
very much, Congresswoman Solis.
    Ms. Solis. Thank you very much----
    Senator Boxer. Thank you.
    Ms. Solis [continuing]. Senator.
    [Applause.]
    Senator Boxer. I will ask our next panel to come forward: 
Hon. Mary Nichols, chairman, California Air Resources Board; 
Mayor Antonio Villaraigosa, city of Los Angeles--we welcome 
you; Mayor Bob Foster, who came to me quite a while ago and 
introduced himself, and, within 1 minute, he was talking about 
how we had to work to clean up our air at the ports; and 
Supervisor S. Roy Wilson, of Riverside County, the 4th 
District. We're so pleased to have all of you.
    So, why don't we just go in the order that I introduced 
you. So, Hon. Mary D. Nichols, chairman, California Air 
Resources Board, it's just a pleasure to see you here.

    STATEMENT OF MARY D. NICHOLS, CHAIRMAN, CALIFORNIA AIR 
                        RESOURCES BOARD

    Ms. Nichols. Thank you so much, Senator Boxer. It's a 
pleasure to greet you as the chair of the Environment and 
Public Works Committee, and to reflect on the fact that, when I 
first met you, you were, as a local elected official, on the 
board of the Bay Area Air Quality Management District. So, 
you've----
    Senator Boxer. That's right.
    Ms. Nichols [continuing]. Been fighting for clean air for a 
long time, and it's great to be able to work with you again.
    As you pointed out, and others will underscore, California 
is facing an unprecedented growth in the trade that flows 
through its ports. We expect that cargo may triple between 2000 
and 2020. This presents us with tremendous challenges in a 
situation where we're already dealing with unacceptable levels 
of pollution, particularly the diesel toxic and particulate 
matter emissions that come from goods-movement activities. Ship 
emissions have been of particular concern to California for 
many years now, and we've been struggling in this area, along 
with the recognition that we have a critical need to reduce the 
cancer risk from the particulate matter. Diesel is the largest 
single source of particulate matter, and the port is a hub for 
these kinds of activities. So, it really is a question of 
environmental justice, and it's not just Los Angeles, it's all 
of our major ports in the State that are facing these issues. 
Oakland, San Diego, Port Hueneme, Stockton all constitute 
hotspots for toxic air contaminants. Major ports around the 
country--your legislation obviously would affect other cities--
Houston, Galveston, New York, New Jersey, Seattle. We face 
similar problems, and we're all struggling with the fact that 
we're not getting the help that we need at the national or the 
international level. We know that there are proposals underway, 
but they're not moving quickly, as you've noted, and U.S. 
regulations just don't go far enough.
    The Air Resources Board has been, in its own way, moving 
forward under a goods management plan that was adopted several 
years ago. We have two important rules, one of which is 
actually in effect now, dealing with the auxiliary engines on 
the oceangoing vessels. It requires them to use cleaner-burning 
fuels as they are in the 24-nautical miles of the California 
coast. We're being sued by the Pacific Merchant Shipping 
Association over those regulations, on the grounds that they 
think we're preempted by the Clean Air Act and that we don't 
have authority for these regulations. Now, the good news is 
that, despite the litigation--we have been monitoring--and 
there is compliance underway, in any event--most of the firms--
most of the ships that we have inspected are, in fact, coming 
into compliance with the rules. But if this litigation is 
successful, we would be completely blocked from any kind of 
enforcement.
    We have been able to push ahead with rules dealing with the 
cargo-handling equipment at the ports and the rail yards. In 
October, we're going to be moving forward to consider 
regulations on harborcraft. We're looking at the port drayage 
trucks in November. Then we're going to be looking at shoreside 
power. Finally, in December of this year, we expect to be 
considering another rule, that will be the really big one, that 
deals with the main engines on the oceangoing vessels. But, 
again, we expect major legal challenges to our efforts to move 
in this area.
    We need EPA's help to address the ship emission pollution. 
National action would go a long way. Of course, international 
action would be even better. But the fact is that the proposals 
that have been put forward, which are, you know, reasonable 
proposals, and--are not moving. The fact that we do have 
support at the IMO for a U.S. proposal indicates that there is 
a feasible way forward here. We're not asking for technologies 
that don't exist, or for fuels that can't be produced. I think 
if there were action at the Federal level, if you were able to 
move your bill forward, we think that there would be a 
recognition on the part of other countries of U.S. leadership. 
This would also go a long way within the international 
framework toward getting us to a resolution.
    So, again, we think that the legislation that you are 
proposing is conceptually right, that it moves us in the right 
direction, and, without it, we are simply going to continue to 
struggle and be frustrated at every turn in our effort to deal 
with this critical health problem.
    Thank you.
    Senator Boxer. Thank you so much. It is so wonderful to 
have you back in such an amazingly important position.
    I'm just thrilled to see you.
    Ms. Nichols. Thank you.
    Senator Boxer. Mayor, we welcome you. Mayor Villaraigosa, 
along with Mayor Foster, have been pushing very hard on this. I 
really welcome you, Mayor, and please address us. Is your mike 
on?

 STATEMENT OF HON. ANTONIO R. VILLARAIGOSA, MAYOR, CITY OF LOS 
                            ANGELES

    Mr. Villaraigosa. Senator Boxer, it's good to be here with 
you today. I want to thank you and Congressmember Solis for 
your leadership on this issue, as well as Senator Feinstein and 
Congressmember Harmon. What a difference a majority makes. Let 
me just make that absolutely clear, because----
    Senator Boxer. Can you make that clear just one more time?
    [Laughter.]
    Mr. Villaraigosa. What a difference a majority makes, a new 
majority. I can tell you that I've been major now for 2 years, 
knocking on the doors of the Congress, asking for support from 
the Congress and the Administration, for help in addressing the 
need to clean up our ports. Now, those requests for help will 
no longer fall on deaf ears, with the Marine Vessel Emissions 
Reduction Act of 2007. So, I thank you.
    This bill marks a necessary first step in the fight to 
reduce air pollution, cut emissions, and preserve the health of 
our local communities, as Congressmember Solis said. It brings 
the Federal Government to the table as a real partner with 
ports across the Nation to address an urgent public health 
challenge.
    At the center of our efforts here in Southern California is 
the reduction of our pollution at the Ports of Los Angeles and 
Long Beach. I'm very proud to be sitting here, as I am so 
often, with my colleague and friend Mayor Foster. Together, 
these ports handle nearly 45 percent of all the seaborne goods 
that enter the United States each year. This contributes $260 
million to our national economy, and $28 billion in State and 
local revenues. As Secretary Nichols--or soon-to-be Secretary 
Nichols, I guess you haven't been confirmed yet--but has 
mentioned, it's going to triple in the next 20 years. We 
believe that, as we grow, we have to green our ports. It--this 
port is a cornerstone for our economy, a gateway to the East, 
and a portal to the South, it's America's primary access point 
for international trade and commerce, but, as Congressmember 
Solis mentioned, it also is a big contributor to public health 
issues in the region.
    Recognizing the tremendous impacts of our ports and their 
unparalleled growth over the last 25 years, Mayor Foster and I 
have made greening the ports a centerpiece of our environmental 
agenda. We introduced and adopted the Clean Air Action Plan, 
with the help, of course, of the two ports, the Ports of Los 
Angeles and Long Beach. This plan is a multifaceted initiative 
that would reduce harmful emissions, improve air quality, and 
create a healthier environment for all our families. This plan 
is the first of its kind in the country, a model of 
collaboration, and a framework for building green ports 
everywhere. It is the most far-reaching effort to clean up a 
port, not at--not just anywhere in the country, but anywhere in 
the world, and will be a template for what other ports around 
the world do to clean up their ports.
    We're already making good on our commitments. We've 
commissioned 16 clean locomotives which use 30 percent less 
fuel and will cut nitrogen oxide emissions by 53 percent. Later 
this year, we'll adopt a clean truck program, which will 
replace older diesel trucks with alternative-fuel vehicles. We 
partnered with Maersk Line, one of the largest cargo shipping 
companies in the world, to convert all the ships to cleaner 
fuels, reducing emissions by 73 percent. We pioneered the use 
of ``cold ironing,'' allowing ships to shut off their engines 
overnight and recharge with electric power.
    We've done our part, Senator, we'll continue to work 
tirelessly to make our ports examples of green growth and 
economic vitality. The Marine Emissions Reduction Act is a 
landmark piece of legislation that brings the Federal 
Government as a full partner in this effort. It represents the 
bold vision and commitment of Senators Boxer and Feinstein, and 
Congresswomen Solis and Harmon, and recognizes the potential of 
our ports to be engines of economic growth and environmental 
innovation. It's the product of a partnership between local, 
State, and Federal officials dedicated to growing green. It 
will serve as a blueprint for improving air quality for future 
generations. I urge the Congress to send this bill to the 
President's desk without further delay.
    I thank you for allowing me to speak today, and I look 
forward to answering any questions you may have.
    [The prepared statement of Mr. Villaraigosa follows:]
 Statement of Hon. Antonio R. Villaraigosa, Mayor, City of Los Angeles
    Senator Boxer and members of the Environment and Public Works 
Committee, I thank you for the opportunity to come before you today to 
express my support for S. 1499, the ``Marine Vessel Emissions Reduction 
Act of 2007.'' This legislation will put the federal government 
squarely to the task of mitigating the harmful environmental effects of 
international shipping while supporting the continued growth of foreign 
trade. I thank Senator Dianne Feinstein for her co-sponsorship of this 
important legislation, and I want to acknowledge the work of 
Congresswoman Hilda Solis who has sponsored the companion legislation 
in the House of Representatives along with Congresswoman Jane Harman. I 
enthusiastically endorsed your legislation upon its introduction and 
look forward to its final passage.
    This is an extremely important hearing on the pressing issue of 
mitigating air pollution at our Nations' seaports. I certainly 
appreciate the necessity of the ``Marine Vessel Emissions Reduction 
Act,'' as I have struggled with the task of addressing the mitigation 
of goods movement-related air pollution in Los Angeles. These harmful 
emissions are a result, in part, of the great business successes of the 
Port of Los Angeles and the Port of Long Beach which comprise the 
largest container seaport complex in the United States, and fifth 
largest in the world.
    Last year, the Ports of Los Angeles and Long Beach moved an 
astounding 15.7 million TEUs, or twenty-foot equivalent units, 
representing an 11 percent increase over the previous year, and 
continuing an impressive sustained growth for American seaports.
    Together, these two mega-seaports handle approximately 45 percent 
of the containerized consumer goods imported into the United States 
annually, registering $260 billion in economic impact, $28 billion in 
State and local revenue and 3.3 million jobs nationwide. In Southern 
California alone, the allied maritime and goods movement industries 
have created more than 500,000 permanent jobs and remain poised to 
generate even more middle-class jobs for our communities.
    While the growth of the Ports has outpaced all projections over the 
past 25 years, our current forecasts predict a tripling of current 
container cargo volumes over the next 25 years, especially from our 
Pacific Rim trading partners.
    Against this backdrop, and the current levels of harmful air 
pollution in the Los Angeles region, I have promoted the principle of 
``green growth.'' Put simply, we must address the harmful environmental 
and health effects of trade activity as we facilitate trade growth--and 
the jobs and economic opportunity it brings.
    With that, our challenge--that of the two ports and the cities of 
Los Angeles and Long Beach--is to effectively accommodate the 
burgeoning growth of our seaports while, at the same time, reducing the 
burden on the environment and public health.
    Following an unprecedented collaboration between the two ports and 
local, State and Federal Agencies, including the South Coast Air 
Quality Management District (SCAQMD), the California Air Resources 
Board (CARB), and Region 9 of the United States Environmental 
Protection Agency, and extensive research, study and discussion, the 
Boards of Harbor Commissioners for the Ports of Los Angeles and Long 
Beach unanimously adopted the San Pedro Bay Ports Clean Air Action Plan 
(CAAP) last November.
    The Clean Air Action Plan is a 5-year plan designed to develop air 
pollution mitigation standards and incentive programs necessary to 
reduce harmful air emissions, thereby making vast improvements to the 
air quality and creating a healthier environment for all our citizens, 
while allowing port development to continue apace. It is a starting 
point, and will be continually subject to review and modification on an 
annual basis.
    The Clean Air Action Plan is the first endeavor of its kind in the 
country, stands as a model of public/private collaboration for other 
ports, and provides a framework for environmental improvements that 
work hand-in-hand with the future growth of the ports.
    Over the next 5 years, the CAAP will address the five sources of 
port-related air pollution:
    1. Heavy-duty vehicles--trucks--that operate at the ports;
    2. Cargo-handling equipment engine standards;
    3. Harbor craft engine standards;
    4. Railroad locomotives using clean alternative fuels and cleaner 
engines;
    5. Container ships and other ocean-going vessels calling at the 
Ports through speed reduction standards, low sulfur fuel use and cold-
ironing.
    The Ports of Los Angeles and Long Beach have made significant 
strides in advancing this landmark plan. On July 11, together with my 
friend Mayor Bob Foster of Long Beach, we commissioned 16 clean 
locomotives that were purchased with funds from both ports, Pacific 
Harbor Lines and the Carl Moyer Program. Switching to these cleaner 
locomotives will result in a 53 percent reduction in nitrogen oxide 
emissions and a 45 percent reduction in particulate matter emissions 
per locomotive--that equates to removal of an estimated 163 tons of 
nitrogen oxide and 3 tons of particulate matter each year! The new 
locomotives use 30 percent less fuel, reducing greenhouse gases.
    Later this year, the San Pedro Bay Ports' Clean Truck Program will 
begin the process of retrofitting and replacing older dirty diesel port 
trucks that emit high levels of particulate matter and greenhouse gases 
with cleaner fuel and alternative fuel trucks that will further reduce 
health risks to our citizens.
    Another component of the CAAP sets forth innovative approaches for 
reducing emissions from ocean-going vessels. This includes ``cold 
ironing,'' whereby ships at berth switch off their diesel engines and 
plug into shoreside electrical power. Alternative technologies will be 
available to container ships unable to utilize the ``cold-ironing'' 
shoreside-power model.
    We are also working in partnership with environmental leaders in 
the business community. In May 2006, Maersk Lines--the largest 
container carrier in the world--announced they would convert all of 
their ships to using low sulfur fuel--that is, 0.2 percent sulfur 
diesel--in the main and auxiliary engines 20 miles out of Port.
    Through the CAAP and with the participation of the business 
community, we hope to make significant gains in the reduction of 
emissions from marine vessels. But, more can be done.
    The ``Marine Vessel Emissions Reduction Act'' is landmark federal 
legislation and I applaud you, Senator Boxer, as well as Senator 
Feinstein and Congresswomen Hilda Solis and Jane Harman, for your 
collaboration in crafting this important measure.
    I believe the Marine Vessel Emissions Reduction Act and the San 
Pedro Bay Ports Clean Air Action Plan will work in concert to 
effectively reduce air pollution from seaports and mitigate the serious 
threats to our environment and public health.
    As federal law, the Marine Vessel Emissions Reduction Act will have 
the reach that the CAAP does not. Your measure will have the power to 
regulate foreign-flagged vessels that are currently unregulated and 
represent the main source of air pollution at the San Pedro Bay ports. 
Foreign-flag vessels, including container ships, tankers and cruise 
ships, emit more than 90 percent of all pollution from ocean-going 
vessels.
    I understand that the Environmental Protection Agency (EPA) will be 
the lead agency responsible for the regulation and the enforcement of 
the new emissions standards. Because Region 9 of the United States EPA 
participated in the development of the CAAP and continues to be an 
important member of this historic partnership, I believe that your 
legislation and the Clean Air Action Plan will work in tandem.
    In closing, Senator Boxer and members of the Committee, once again 
I would like to express my strong support for your legislation and my 
commitment to helping you see it through to final passage and 
enactment. The economic potential of the San Pedro Bay Ports of Los 
Angeles and Long Beach is well demonstrated and will continue, but 
hand-in-hand with these new environmental standards and initiatives 
that will enable the ports to ``grow green.''
    These are complex environmental and economic challenges, but 
challenges that, in my opinion, offer an opportunity for us to expand 
our current boundaries and embrace a new way of thinking and doing by 
embracing the principles of the Marine Vessel Emissions Reduction Act 
and the San Pedro Bay Ports Clean Air Action Plan.
    I appreciate your holding this important field hearing here at the 
Port of Los Angeles. We here in the Los Angeles area look forward to 
working with you and the Committee on Environment and Public Works to 
see this legislation through to completion.
    Thank you, again.

    Senator Boxer. Mayor, thank you so much.
    Mayor Foster, we welcome you, mayor of Long Beach.

    STATEMENT OF HON. BOB FOSTER, MAYOR, CITY OF LONG BEACH

    Mr. Foster. Thank you very much, Madam Chairman. It's 
always a pleasure to see you.
    I want to also say it's a pleasure to also see my good 
friend Hilda Solis and Secretary Nichols and my good friend, 
the mayor of Long Beach.
    Thank you for having me----
    Senator Boxer. Mayor of Los Angeles.
    Mr. Foster. Did I say----
    [Laughter.]
    Senator Boxer. I don't--is there some kind of job-----
    [Laughter.]
    Senator Boxer [continuing]. Changing here going----
    Mr. Foster. Actually, I also am pretty friendly with the 
mayor of Long Beach, too. So----
    [Laughter.]
    Mr. Foster [continuing]. You'll have to forgive me.
    Senator Boxer. He likes you very much.
    [Laughter.]
    Mr. Foster. Anyway, thank you for having me here this 
morning.
    As you mentioned, shortly after I was elected, I did go 
back to Washington, and I had a conversation with you, and it 
was an extraordinarily fruitful conversation. We talked about 
the need to clean the air. You obviously knew those issues, and 
you exerted leadership. I want to thank you for that 
leadership. That word is key here.
    There is no doubt about what this problem is. We can--we'll 
hear testimony today--you'll hear testimony today--about the 
air quality issues, about the health effects of the port, and 
about the economic importance of the port. We know what has to 
be done. We know it's important to clean this air. These ports 
are going to grow, probably, one way or another. But the air 
quality impacts and the health effects associated with them are 
dramatic. You took action. You introduced the legislation to 
clean up vessels. I think that was critical. It's a critical 
part of this puzzle.
    I might add that, when I was back there at that time, I 
also met with the EPA, and I wish I could say that the response 
in that meeting was anywhere near as productive.
    It was not. I was basically told that we're going to have 
to take 5 years to work on MARPOL-6. My guess is that EPA is 
still reviewing their notes from that meeting. This----
    [Laughter.]
    Mr. Foster. It's just simply unacceptable, in terms of a 
charge to protect public health.
    So, you exerted leadership. I just want to start by saying 
thank you.
    We all know that these ports are the undisputed gateway to 
the United States, they carry 45 percent of the goods bound for 
the rest of the country. We all know they're going to grow. At 
some point, they'll have--carry, probably, 70 percent of the 
imported goods into the United States. They are vital for the 
livelihood of, not only Southern California, but the rest of 
the country. But when you're talking about a tripling of cargo, 
and you're talking about the kind of health impacts, we all 
know that goods movement is a national issue, that the 
pollution caused by the attendant trucks, ships, and 
locomotives is felt acutely in neighborhoods. You heard about 
the environmental justice aspects of that.
    Quite frankly, the level of growth contemplated is 
unsustainable without major environmental enhancements. These 
ports not only have to just grow green, they have to be 
markedly cleaner than they are today with that growth. That's 
the key.
    I've said this many times--we talk about environmental 
justice, but we can no longer afford to have kids in Long Beach 
contract asthma so someone in Kansas can get a cheaper 
television set. That's simply not acceptable. We have to be 
able to provide the leadership here to clean these ports.
    Now, you know, we're--the local area is doing its part. 
Mayor Villaraigosa has indicated that we've worked well 
together on the Clean Air Action Plan, which will reduce 
pollution from these ports by 45 percent in 5 years. In 
addition, we're working on funding for that plan, which is key. 
The ports have already put in $300 million. We're going to put 
a local container fee on, and a truck fee, to cleanup both the 
trucks and provide for infrastructure improvements in the port. 
The key--the key there is to tie those together, because--
Senator Boxer, you know this--there'll be tremendous pressure 
and force behind increasing the infrastructure in these ports 
to move more goods at greater velocities.
    I want those same interests that are aligned to be able to 
say that they want more cargo, faster, through those ports. I 
want them aligned with cleaning up these ports. I want it to be 
in their financial interest to clean up these ports, as well as 
the health interest. So, tying these programs is essential.
    So, the one part that we can't deal with is what's a 
national issue. The Federal Government regulates locomotive and 
regulates ships. Again, just to give you--you know these 
numbers, but the vessels now that are coming in to the Ports of 
Los Angeles and Long Beach contribute a significant amount. The 
vessels generate 59 percent of the particulate matter, and they 
have 90 percent of the sulfur oxide in southern--in the South 
Coast Air Basin.
    Your legislation would regulate them at 1,000 parts per 
million. Some of the ships coming into these ports are at 
27,000 parts per million. So, it is essential that the Federal 
Government be a partner with local government. We have both the 
local government, the State Government, working jointly on this 
to clean these ports. It is just gratifying to see the Federal 
Government finally move in this direction.
    I want to thank you. I want to thank Senator Feinstein and 
all of those in the House who are contributing to this effort. 
I welcome your leadership here. I pledge that the city of Long 
Beach and I will work as hard as we can to help you pass this 
legislation. Again, thank you for your leadership.
    [The prepared statement of Mr. Foster follows:]
        Statement of Hon. Bob Foster, Mayor, City of Long Beach
    Good morning. Senator Boxer, Congresswoman Solis, Supervisor Wilson 
and Director Nichols, I join my colleague from Los Angeles in welcoming 
you to the San Pedro Ports.
    Senator Boxer, thank you for your leadership on tackling port 
pollution. When we first spoke about these issues just after my 
election last year, you knew well the air quality challenges facing 
Long Beach and all of California and asked what you could do to help. 
Your introduction of The Marine Vessel Emissions Reduction Act is a 
significant effort to bring another solution to the air quality 
challenge to the table. I want to thank you for your leadership on this 
front.
    We all know that these two ports are the undisputed gateway to the 
United States. The containers that cross these docks on their way to 
destinations across America carry more than 45 percent of our country's 
imported consumer goods. And the projections for the Ports of Long 
Beach and Los Angeles show a near tripling of cargo in the next decade.
    Goods movement is truly a national issue--but the pollution caused 
by the attendant trucks, ships and locomotives is felt acutely in 
neighborhoods along California's freeways and next to our rail yards.
    Quite frankly, the level of growth contemplated is unsustainable 
without environmental enhancements that make these ports operate 
cleaner than they are today, despite any increase in volume.
    As I have said many times before: We can no longer have kids in 
Long Beach contract asthma so someone in Kansas can buy a cheaper TV.
    It is going to take the collective energies of our cities, our 
ports, our commercial interests, the State of California and the 
Federal Government to be successful at this environmental effort.
    Here at the local level, our two ports have launched the Clean Air 
Action Plan (CRAP), a landmark effort to reduce emissions by at least 
45 percent within the next 5 years.
    Here's just one immediate example of the need for this broad 
collaboration I mentioned: Even with voluntary commercial participation 
in port-sponsored programs that call for reduced off shore speeds, 
ocean-going vessels continue to be one of the largest contributors to 
air pollution in Southern California. These vessels generate 59 percent 
of diesel particulate matter (DPM) and 90 percent of the sulfur oxide 
(SOx) in the South Coast Air Basin.
    Jurisdiction on regulating those vessels, however, falls outside 
the realm of the ports or either of our cities.
    In closing, I believe that we have just one chance to do this 
right--and I truly believe that opportunity is before us now.
    The country looks to California for environmental leadership and 
the entire world is watching closely to see where we take them in this 
effort.
    Senator Boxer, thank you again for your keen focus and willingness 
to tackle these challenges.
    Thank you for the opportunity to present before the committee and I 
look forward to building on this dialogue in the months ahead.

    Senator Boxer. Thank you so much.
    [Applause.]
    Senator Boxer. Thank you very much, Mr. Mayor.
    Our last speaker before--I'm going to ask some questions, 
so, all of you, please stay--Supervisor Roy Wilson. I want to 
tell you that he is the supervisor from Riverside County, the 
4th District. He is Governing Board vice chairman of the South 
Coast Air Quality Management District. I am his constituent. 
So, needless to say, I am very proud that my supervisor has 
stepped up to the plate on this.
    So, please, Supervisor Wilson.

 STATEMENT OF S. ROY WILSON, SUPERVISOR, RIVERSIDE COUNTY, 4TH 
   DISTRICT, GOVERNING BOARD VICE CHAIRMAN, SOUTH COAST AIR 
                  QUALITY MANAGEMENT DISTRICT

    Mr. Wilson. Thank you very much, Senator Boxer. It is, 
indeed, a pleasure to be here.
    As you indicated, I'm here today as vice chairman of the 
South Coast Air Quality Management District, but I'm also very 
honored to be your supervisor in the Coachella Valley portion 
of Riverside County.
    The South Coast AQMD is the agency with the job to achieve 
Federal and State clean air standards in the South Coast Basin, 
a region that is home to over 16 million people.
    We have made great progress in reducing air pollution in 
recent decades, but only--but our basin still has the dirtiest 
air in the country. The California Air Resources Board 
estimates that over 5,400 people die prematurely every year in 
this region due to harm from particulate matter. Other 
documented health impacts include permanent injury to 
children's lung function, increases rates of asthma and heart 
disease, and increased cancer risks.
    On behalf of the South Coast Air District, I want to 
commend you, Madam Chairman, for your leadership in introducing 
a critical public health problem--or a solution to the problem, 
and that is by introducing S. 1499. This region simply cannot 
achieve clean air standards, as mandated by Federal law, unless 
oceangoing vessels such as container ships switch to cleaner 
fuels and cleaner engine technologies, as your bill would 
require.
    Here's why your bill is so important. In recent decades, 
the AQMD has adopted the most stringent emissions standards in 
the country for stationary sources, such as refineries, 
factories, and power plants, as well as for other sources--any 
other source we could identify, such as barbeque lighter 
fluids, residential water heaters, and household paints. Yet, 
we still fall short of attainment. In order to meet Federal air 
quality standard emissions of sulfur oxides, we must cut these 
emissions by half by 2014.
    In addition, nitrogen oxides must be cut by over 70 percent 
by 2023.
    Given this challenge, it is shocking to consider that, just 
upwind of our region, maritime vessels operate enormous 
engines, some of them three stories high, without any emission 
controls to speak of. These vessels also burn some of the 
dirtiest fuel in the world, literally the bottom of the barrel 
left after the refining process. As has been mentioned numerous 
times, this sludgelike fuel sulfur content is about 27,000 
parts per million. Thanks to you, we hope to reduce that to 
1,000 parts per million.
    To meet Federal PM standards, the sulfur content of marine 
vessels must be cut by 95 percent, as your bill calls for. This 
is needed, because the burning of marine fuels is the single 
largest source of sulfur oxide emissions in this region, 
accounting for approximately one-half of all such pollution. 
Oceangoing vessels are also on track to become the third 
largest source of NOx emissions by 2014, and the single largest 
source by 2023. Reducing marine vessel NOx emissions is 
critically important to attaining our goals.
    Unfortunately, despite the clear harm to public health, the 
Federal Government has not provided any real assistance in 
controlling these massive pollution sources. EPA rules are weak 
and do not even touch the source of over 85 percent of marine 
emissions: foreign flag vessels in U.S. waters. In this Federal 
vacuum, State and local governments have sought to act. San 
Pedro Bay ports have stated they will use their authority as 
landlords to impose environmental conditions in terminal 
leases, and the California Air Resources Board has adopted a 
rule limiting emissions from small secondary engines on 
vessels. But there are challenges for State and local 
governments seeking to control these international sources, and 
only the Federal leadership in the Federal Government will be 
able to help us attain these goals.
    Some stakeholders have shown great leadership. Maersk, the 
world's largest shipping company, recently began to voluntarily 
use lower-sulfur fuels in the engines near the California 
coast. This responsible action showed that marine pollution can 
be controlled, and that it can be done while satisfying 
business needs. There are many other effective technologies 
available to comply with your bill's safeguards.
    Your bill will create a level playing field for local 
businesses and those like Maersk who have taken actions to 
maintain public health. Your bill will assist port cities 
around the country to achieve healthful air quality, and will 
prevent competitive disadvantages for ports that do so. This 
bill will allow for economic growth in an environmentally 
responsible way.
    On behalf of the AQMD and the millions of people who suffer 
from air pollution, we thank you, Senator Feinstein, for 
introducing this very, very legislation.
    [The prepared statement of Mr. Wilson follows:]
   Statement of S. Roy Wilson, Vice Chairman of the South Coast Air 
                      Quality Management District
    Good morning. My name is Roy Wilson. I am here today in my capacity 
as Vice Chairman of the South Coast Air Quality Management District, 
and I also serve as a member of the Board of Supervisors of Riverside 
County. The South Coast AQMD is the agency with the job to achieve 
federal and state clean air standards in the South Coast Air Basin, a 
region that is home to over 16 million people.
    We have made great progress in reducing air pollution in recent 
decades, but our Basin still has the dirtiest air in the country. The 
California Air Resources Board estimates that over 5,400 people die 
prematurely every year in this region due to harm from particulate 
pollution.
    Other documented health impacts include permanent injury to 
children's lung function, increased rates of asthma & heart disease, 
and increased cancer risks.
    On behalf of the South Coast Air District, I want to commend you, 
Madame Chair, for your leadership in recognizing a critical public 
health problem and introducing S-1499.
    This region simply cannot achieve clean air standards as mandated 
by federal law unless oceangoing vessels such as container ships switch 
to cleaner fuels and cleaner engine technologies, as your bill would 
require.
    Here's why your bill is so critical:
    In recent decades, the AQMD has adopted the most stringent emission 
standards in the country for stationary sources such as refineries, 
factories and power plants, as well as for every other source we could 
address, from barbeque lighter fluids to residential water heaters to 
household paints.
    Yet we still fall short of attainment. In order to meet federal air 
quality standards, emissions of sulfur oxides must be cut by over half 
by 2014. In addition, nitrogen oxides must be cut by over 70 percent by 
2023.
    Given this challenge, it is shocking to consider that just upwind 
of our region, marine vessels operate enormous engines (some over three 
stories high) without any emission controls to speak of. These vessels 
also burn some of the dirtiest fuel in the world--literally the bottom 
of the barrel, left after the refining process. This sludge-like fuel 
has a sulfur content averaging 27,000 parts per million, orders of 
magnitude beyond the sulfur content of fuels used on land. Due to 
prevailing winds, emissions from this fuel contribute to health risks 
all the way to inland counties.
    To meet federal PM standards, the sulfur content of marine fuels 
must be cut by over 95 percent, as your bill calls for. This is needed 
because the burning of marine fuels is the single largest source of 
sulfur oxide emissions in this region, accounting for approximately 
one-half of all such pollution.
    Oceangoing vessels are also on track to become the third largest 
source of NOx emissions by 2014, and the single largest source by 2023. 
Reducing marine vessel NOx emissions is critical to our attainment 
goals.
    Unfortunately, despite the clear harm to public health, the federal 
government has not provided any real assistance in controlling these 
massive pollution sources. EPA rules are weak and do not even touch the 
source of over 85 percent of marine emissions--foreign flag vessels in 
U.S. waters. In this federal vacuum, state and local governments have 
sought to act. San Pedro Bay ports have stated they will use their 
authority as landlords to impose environmental conditions in terminal 
leases, and the California Air Resources Board has adopted a rule 
limiting emissions from small secondary engines on vessels. But there 
are challenges for state and local governments seeking to control these 
international sources, and federal leadership will be vital to full 
attainment of clean air goals.
    Some stakeholders have shown great leadership. MAERSK, the world's 
largest shipping company, recently began to voluntarily use lower 
sulfur fuels in its engines near the California coast. This responsible 
action showed that marine pollution can be controlled, and that it can 
be done while satisfying business needs. There are many other effective 
technologies available to comply with your bill's safeguards.
    Your bill will create a level playing field for local businesses 
and those like MAERSK who take actions needed to maintain public 
health. Your bill will assist port cities around the country to achieve 
healthful air quality, and will prevent competitive disadvantages for 
ports that do so. This bill will allow for economic growth in an 
environmentally responsive manner.
    On behalf of the AQMD and the millions of persons suffering from 
air pollution, we thank you for introducing this landmark legislation, 
and we offer whatever assistance we can provide to see it adopted.
    Thank you.

    Senator Boxer. Well, I'll tell Senator Feinstein you said 
that. I'm the short one--Barbara Boxer.
    [Laughter.]
    Senator Boxer. But we are in this together, and I thank you 
so much, Supervisor.
    I--yes, I think he deserves that, too.
    [Applause.]
    Senator Boxer. I have a couple of comments to make, and 
then I'm going to have a question for each panelist.
    I cannot tell you how great I feel right now to hear all of 
your words. It may seem strange to you that I say that, because 
you're here in California, and California's on the cutting edge 
of environmental sanity. Unfortunately, it's not that way in 
Washington. I'm sure that my staff is marveling as they listen 
to your words.
    What I want to tell you is that what you represent, really, 
this panel--and I know the next one will be the same--is really 
common sense for the common good. But when you really dissect 
each of your words, you're all getting to the same point. If 
you can't breathe, you can't work. We need to grow, but we need 
to grow in a wise way. We can do this. We want the Federal 
Government to be our partner. That pretty much, I think, says 
it, says it all.
    Now, what I want to convey to you is that--something that 
you know, but I want to make sure you know, because you're the 
leaders here, and that is that the agency that's charged with 
the responsibility to protect the health of our people, the 
Environmental Protection Agency, seems to be more interested in 
protecting special interests than in protecting public health. 
This----
    [Applause.]
    Senator Boxer. I want you to withhold, if you would, 
although I share your enthusiasm for those remarks.
    [Laughter.]
    Senator Boxer. You know, this is a battle that I am 
involved in every day, because I head, now, the Environment and 
Public Works Committee. I am fighting it every day--California 
waiver, that we are needing in order to address the issue of 
global warming, tied up--and I have very bad feelings about 
what's going to happen, in terms of that decision--particulate 
matter in the air, the new rule on ozone, where you have the 
EPA administrator essentially saying, ``I know we need to 
tighten up, but, you know what, I'm still considering not 
tightening up.'' It just goes against the rule of law and what 
the EPA is supposed to do.
    Now, Congresswoman Solis, who left, because, I know, she 
has a hectic day ahead of her, she's engaged in the same thing. 
Congressman Waxman, and all the names that you heard, we're 
engaged in this battle.
    So, what I'm going to do, with your approval, is to brief 
the EPA administrator on your comments, give him your written 
comments, give him the sense of urgency that you've brought to 
the table, and I'm going to ask each of you--if I need you to 
come back to D.C., either to help me make the case one-on-one 
with the administration, or to appear before me in the 
Environment Committee, would you each be willing to do that? I 
see nods of heads all the way down. That's really important.
    The last point I'd make before I ask a question is this, 
and it's really for everybody to think about. If any one of us 
was walking down the street, and we heard a train coming down 
the tracks at full speed, and there were 5,400 people lying on 
the tracks, we'd scream and yell and grab them and push them 
out of the way. What you're doing here today, in a very nice 
way, is, you are screaming on their behalf, with very, I think, 
patient words. The people out there--and I know how hard you've 
been working. Just know that your voice is heard. Just know 
that, to the ultimate amount of the power that I have as chair 
of this committee, I will force the EPA to confront these 5400 
premature deaths and everything else that goes along with it. 
But what you do for me when you come out like this in these 
hearings is, you just give me the courage and the faith, 
because it gets pretty brutal back there.
    But change has come, in the form of who holds the gavels of 
these committees. Senator Feinstein holds the gavel on the 
Appropriations Subcommittee that deals with the EPA. These 
things are all good. You know, hopefully change will come in 
the near future all across the board in Washington. This is 
what we need.
    So, let me start, Supervisor Wilson, with you, and ask you 
this. The Bush administration, when we went to them and asked 
their support for this legislation that will make sure that 
these foreign ships cleanup their act--that's what we're 
talking about--they said, ``Well, you know, we're negotiating, 
and we're--this is an international question.'' So, I'm asking 
you, as a county supervisor from Riverside County, not known as 
a Democratic county or--in any way--can we afford to wait for 
an international agreement to be reached before we pass these 
bills?
    Mr. Wilson. Absolutely not. It would take years to do that. 
People are dying today. We need this legislation now. We need 
it passed by two-thirds vote so we can override a veto, if it 
comes.
    Senator Boxer. Music to my ears. Thank you.
    [Applause.]
    Senator Boxer. Wait, wait, wait--and, Mayor Foster, as I 
remember back, not only did you, sort of, grab me by the 
shoulders--not literally, but figuratively--and said, ``This is 
an issue you have to address,'' but then I came back to see you 
in your office in Long Beach and we talked further about it. 
What actions has your city had to take to address the health 
impacts of port pollution? Don't these impacts represent a cost 
to your city in human and financial terms?
    Mr. Foster. Well, Madam Chairman, we actually have our own 
health department in Long Beach, but the--just to give you a 
couple of statistics----
    Senator Boxer. Yes, please.
    Mr. Foster [continuing]. Along the 710 Corridor, which is 
the-- which is the one that's impacted from goods movement in 
and around the city of Long Beach, you have three times the 
statewide asthma cases, you have three times higher incidence 
in that area than you do with a statewide average. You know, 
there has been health studies up and down the State that 
demonstrate increases in heart disease, increases in cancer 
rates, truncated lung development. Those are impacts today. You 
know, the truth is--and that's why I'm--we're subsidizing 
inexpensive goods movement with the help of our citizens. 
That's just simply intolerable.
    You know, the stupidity of it is--I mean, just step back 
for a moment--you're--we had a lot of manufacturing move from 
this country overseas, and a lot of jobs move overseas. Now, 
that may be part of the world economy, and it was bound to 
happen, because you couldn't keep a huge percentage of the 
manufacturing in the United States. But to now subsidize, in 
addition to that, with huge health effects, the very goods that 
we used to manufacture, being imported into this country 
without paying for it, without cleaning it up, is simply 
ridiculous. To tell you--this thing about----
    [Applause.]
    Senator Boxer. Just hold, hold.
    Mr. Foster. The thing about international treaties--you 
know, I sat with EPA, as I said. They told me 5 years for 
MARPOL-6. That's simply unacceptable. I don't know how many 
premature deaths and how many cases of cancer and how many 
heart disease and asthma cases there are going to be. Quite 
frankly, one is too much. We have to be sensible about this. I 
will be happy to go, anytime, and talk to anyone, even though, 
quite frankly, going back and spending more time with EPA--I'd 
probably rather get a root canal. But I'll be happy to do it, 
because I think someone has to demonstrate--and your leadership 
is critical here--this is not acceptable any longer. The truth 
is, we'll find a way, at the local government, to deal with 
this. If, in fact, we don't get help, we will find a way.
    If you want the goods to move freely, and you want more 
velocity and more goods--larger amounts at greater speeds, if 
we all work together, we can make that happen. If we try to 
each protect our own little self-interest here, it's not going 
to happen, it'll be tied up in litigation, and it'll be tied up 
in very clever ways in which local governments and State 
governments will find ways to do it. You know, I would try to 
just simply tell someone who's worried about economic activity 
that the best economic activity is when you link arms and say, 
``We're going to make sure that we have economic activity, but 
we're going to protect public health, as well.''
    Senator Boxer. You're so right. That was the reason that 
the national legislation is so key, because--and what was 
interesting--when I wrote it, I went to every single Senator 
who represents, you know, a port State, and at first they were 
a little, ``What does this mean to my port?'' Then they 
recognized that--exactly what you said, that we are in this 
together, and we need to protect the population, and it makes 
no sense to have this patchwork quilt.
    So, believe me, when I have you go back there, it won't be 
to talk to Steve Johnson. I will take that responsibility onto 
my own shoulders. It will be--he's the administrator of EPA--it 
will be, really, to talk to colleagues on both sides of the 
aisle, because I think that's where we need to move.
    Mayor Villaraigosa, what are your top recommendations for 
Federal action with respect to port pollution?
    Mr. Villaraigosa. Well, first of all, let me correct, or at 
least provide my own assessment. I wouldn't describe you as 
``short.'' I would describe you as someone who has the courage 
of a lion.
    Senator Boxer. Oh, thank you.
    Mr. Villaraigosa. I've known you for 20 years. Not just on 
the issue of the environment, on the issue of civil rights, on 
the issue of jobs, homeland security, whatever it is, you have 
always been there, speaking out in a way that I think sets you 
apart. So----
    Senator Boxer. Thank you, Mayor.
    Mr. Villaraigosa [continuing]. Stop with the ``short'' 
jokes.
    Senator Boxer. Well, you know.
    Mr. Villaraigosa. With respect to--look----
    Senator Boxer. ``Short'' jokes.
    Mr. Villaraigosa. I mean, I think we need a partnership. I 
said that, initially. I mean, the fact that--as Mayor Foster 
has indicated--that this administration is stonewalling the 
implementation of a MARPOL--the MARPOL. Treaty--is 
unacceptable. The fact that virtually--and I don't say this, by 
the way--we've had discussions about this--I don't say this 
from a partisan--because here in the State, we have a Governor 
who has supported many very important significant environmental 
initiatives. I say this from the fact that, you know, for the 
last decade the Congress has been missing in action. This 
Administration, since its inception, has been absolutely absent 
as a partner on the issue of global warming, on the issue of 
climate change overall, and certainly on this issue of port--
you know, cleaning up our ports.
    So, what do we need, specifically? We need a partnership. 
We need to implement this bill. We need the funds to do it. I 
mean, Mayor Foster said that the city--the Ports of Long Beach 
and Los Angeles are committed to a local container fee. We're 
also looking at the possibility of a State-generated fee, as 
well, on containers. But we need Federal support. This 
Government--this Administration has been absolutely absent in 
infrastructure investment for our highways, for our roads, our 
bridges, as we've seen recently. You know, those kinds of 
investments in infrastructure are critical. We're engaging in, 
you know, ``cold ironing,'' here, on-dock rail. The opportunity 
to partner with the Federal Government to help fund some of 
those efforts is something that we certainly would welcome, and 
we would hope that, with your leadership and a new 
administration, we might be able to get that.
    Senator Boxer. Thank you, Mayor.
    My last question is to Mary Nichols. One time not too long 
ago, you were the head of EPA's air pollution office. It was 
under the Clinton administration. If you were there now--and 
how we wish it--what actions would you be taking now to reduce 
port pollution? What steps would you take?
    Ms. Nichols. Well, I would be moving forward to adopt, at 
the national level, what the local Air Quality Management 
District and the State of California are already doing.
    Senator Boxer. Right.
    Ms. Nichols. There's a whole series of measures there, 
including the one that we're discussing today for the 
oceangoing vessels. But I would look at the ports in a more 
comprehensive manner, because around the country I think 
there's finally recognition that you need to take a look at 
these institutions and not just go one piece of equipment or 
one source at a time, but really look at the overall economic 
entity that is a port, and try to figure out how to bring the 
levels of pollution down to acceptable levels. The other thing 
that I would be doing--and I--again, I guess we're picking on 
the administrator of EPA, but I'm going to add a little fuel to 
the fire--I was in Fresno, 2 days ago, for a meeting with the 
administrator, and, before I went into the meeting, I stood out 
on the sidewalk with a large group of citizen activists, many 
of them representing the organizations that you referred to at 
the beginning of your remarks here today, Madam Chair. Those 
groups were not allowed to meet with him. They weren't invited 
to the meeting. He came to their community and did not visit 
the Superfund site, did not visit any of the hotspot areas in 
the community. He was in a closed meeting, only with 
representatives of government and business. Now, I'm one of 
those representatives of government, myself, so obviously I was 
there to talk to him about the problem, and appreciate the fact 
that he was interested in the air quality issues in the San 
Joaquin Valley. But it's the same problem. If you don't go into 
the communities, maybe you just miss some of the sense of 
urgency when----
    Senator Boxer. Right.
    Ms. Nichols [continuing]. When you're not talking to the 
real people who are affected.
    Senator Boxer. No question about it. I think would go a 
long way.
    Thank you. This has been a fantastic panel. Thank you very 
much.
    [Applause.]
    Senator Boxer. Our last panel can take their seats.
    David Freeman will introduce Geraldine Knatz, Richard 
Steinke, Professor Avol, and Dr. John G. Miller.
    All right. We're going to start right out, because I've got 
time issues. So, we're going to go right to David Freeman, our 
Honorable David Freeman, who will introduce Dr. Geraldine 
Knatz. Just so you know, that David is the president of the Los 
Angeles Board of Harbor Commissioners.
    I'll ask people to please settle down.
    Thank you, David. Go ahead. Make sure you make--you push 
your mike--there you go.

   STATEMENT OF DAVID FREEMAN, PRESIDENT, LOS ANGELES HARBOR 
                           COMMISSION

    Mr. Freeman. I have two very brief comments to make.
    One, I am just so happy to welcome you to this port. I have 
appeared before you in Washington, and I've followed your 
leadership on issues as far-ranging as protecting our coasts 
from oil drilling. If it weren't for you, there would probably 
be so many drills out there that we couldn't get the ships to 
come in. In terms of, not just environmental justice, but when 
the energy gougers were trying to steal all of our money, you 
were there, leading the fight to try to get FERC----
    Senator Boxer. Thank you, David.
    Mr. Freeman [continuing]. To do something. It's just 15 
years of eyewitness to your leadership that I want to State and 
welcome.
    In terms of these two executive directors, Mr. Steinke 
needs no introduction. He was Geraldine's boss at one time, and 
that's his claim to fame forever.
    [Laughter.]
    Mr. Freeman. I just simply wanted to say that I have 
observed, as the president of the L.A. Commission, how these 
two ports have come together for cleaning up the air and green 
growth. I've had the benefit of a long career, and I've seen a 
lot of people in action. I have never seen two organizations 
work together better and more effectively than Geraldine and 
Dick Steinke. I want to introduce them to you as real doers.
    Here at Los Angeles, when we knew we had a big job to do, 
the mayor picked a woman to do it, and she is doing it. So, I 
will end my remarks with the introduction of the people that 
are really making it happen here.
    Senator Boxer. Thank you so much, David. We appreciate all 
your hard work, we really do.
    Dr. Knatz, do you want to start, followed by Mr. Richard 
Steinke? That's, respectively, the director of the Los Angeles 
Port, followed by the director of the Long Beach Port.

 STATEMENT OF GERALDINE KNATZ, Ph.D., EXECUTIVE DIRECTOR, PORT 
                         OF LOS ANGELES

    Ms. Knatz. Yes, thank you.
    Senator Boxer, welcome back to the Port of Los Angeles, 
because I know you're no stranger to the Port.
    I appreciate you inviting the Port to participate in this 
field hearing, and, on behalf of the entire Los Angeles Port of 
Harbor Commissioners, I appreciate your leadership, and that of 
Congresswoman Hilda Solis, in introducing S. 1499 and H.R. 
2548.
    Senator Boxer, I know that you are personally aware of the 
Port of Los Angeles efforts to bring greener measures to the 
maritime industry, because you've been our champion in 
Washington to push for the ratification of the MARPOL Annex 6 
Treaty, which would allow the U.S. to establish the North 
American Sulfur Emission Control Area to reduce ship emissions 
from oceangoing vessels. Changing treaties is a long row to 
hoe. While the International Maritime Organization, the IMO, is 
an honorable organization, waiting for the IMO to make these 
kinds of changes is like watching a glacier move, because 
reducing harmful ship emissions is such a critical initiative, 
we need to lead the international efforts, rather than to wait 
for them to occur.
    At the Port of Los Angeles, we are aggressively campaigning 
for a greener maritime industry through collaborative efforts 
with other ports around the world. Last December, the Port of 
Los Angeles, with support from the U.S. EPA, the South Coast 
Air Quality Management District, the U.S. Maritime 
Administration, and the Shanghai Municipal Port Administration 
Bureau hosted more than 25 Pacific Rim ports for the inaugural 
Pacific Ports Clean Air Collaborative Conference. This 3-day 
meeting here in Los Angeles was held to discuss challenges and 
solutions to air pollution created by port operations. At that 
meeting, we rolled up our sleeves, discussed technical, 
operational, and even business challenges that are common to 
all ports, in terms of trying to effect changes onsite and 
within the maritime industry at large. We wrapped up this--the 
conference with a ceremonial commitment among the participants 
to set future conferences so that we may continue to share 
intelligence about emerging technologies and best practices.
    Just yesterday, we received official word from the Shanghai 
Municipal Port District that they will host the second meeting 
of these 25 ports around the Pacific Rim this November.
    Sharing intelligence from port to port is especially 
critical, and, from our standpoint at Los Angeles, we've 
invested tens of millions of dollars into research to really 
delve into the measurement of emissions from all port--related 
sources, and the impact of those emissions, not only on the 
communities surrounding our ports, but the entire South Coast 
Air Basin. We have a monumental air quality problem here in 
Southern California, and we have mobilized a monumental effort 
to improve air quality by reducing port--related air emissions.
    To that end, we don't see a need for other ports around the 
world to really recreate the wheel. Instead, we're urging ports 
around the world to take pages from our air quality playbook, 
literally. We're in the process of creating an Internet-based 
clean air toolbox of air emission reduction strategies that 
ports worldwide can use to implement their own clean air action 
plans.
    This resource, which we've just vetted with the American 
Association of Port Authorities, is a focal point in our 
successful effort that resulted in the International 
Association of Port Authorities adopting a resolution calling 
on ports internationally to create their own clean air action 
plans.
    We are moving ahead on all fronts. To effect change in an 
industry like the maritime industry, you really need to create 
a ruckus. You need to get people all riled up. You need to 
practice what you preach, and preach every chance you get. We 
have had to become a change agent, a catalyst, not only for 
other ports, but for the industry, because that is the only way 
we can keep the goods moving.
    We need to crusade so passionately for cleaner air that it 
makes other countries, other ports, other businesses want to be 
on our side. If our efforts work, at the end of the day who 
will want to be the port that the dirty ships go to? This 
industry needs monumental changes, and the time for change is 
now.
    International trade, especially from the Pacific Rim, is 
growing at an unprecedented pace, far exceeding economic 
projections. Over the past year alone, the amount of containers 
coming through the Port of Los Angeles has increased by 16 
percent. By the year 2020, the Ports of Los Angeles and Long 
Beach are expected to handle the equivalent of 36 million 20-
foot containers annually, more than twice what we're doing 
today.
    Our prominent position in international trade, and this 
projected growth, creates major challenges for the port and its 
infrastructure, as well as major challenges in working with our 
international trading partners and their port facilities for 
seamless vessel and port operations.
    But our mayor has been clear, the only way we're going to 
be able to accommodate the growth and continue to deliver the 
goods to the State and the Nation is to grow green. One of the 
first significant tests of the mayor's policy will be the 
expansion of a major cargo shipping terminal operated by 
TraPac, where we're combining improvements in technology and 
environmental mitigation to handle two-thirds more containers 
than in the past, while dramatically reducing the emissions of 
toxic pollutants and the health--risk impacts on the 
surrounding communities to below the current levels. By 
combining new on-dock rail facility, more efficient loading 
cranes, onshore power for container vessels, which we call 
``cold ironing,'' along with cleaner--burning fuels and 
pollution-control technology, we can expand the TraPac 
terminal, and other terminals in the future, while reducing the 
health risks associated with diesel particulates.
    The Port of Los Angeles is a member of the California 
Climate Action Registry, which requires ports to report 
greenhouse gas emissions from port operations. We'll be working 
with the California Air Resources Board to do our part in 
capping greenhouse gas emissions from port-related sources. As 
part of this effort, we believe that the TraPac EIR is also the 
first port environmental document, perhaps one of the first in 
California, to undertake a detailed assessment and provide 
mitigation for greenhouse gases.
    Mayor Villaraigosa has already spoken about our Clean Air 
Bay Ports--our San Pedro Bay Ports Clean Air Action Plan, so 
I'm not going to go over that.
    While we take pride in saying that the Joint Ports Clean 
Air Action Plan is a local initiative, I think one of the most 
impressive aspects about the plan is that it illustrates our 
commitment to work with the Federal EPA Region 9, the 
California Air Resources Board, and the South Coast Air Quality 
Management District. A major focus of the plan is reducing 
emissions----
    Senator Boxer. I'm going to ask you to finish up now in 
the----
    Ms. Knatz [continuing]. OK----
    Senator Boxer [continuing]. Next 20 seconds, if you can.
    Ms. Knatz [continuing]. OK--from oceangoing sources. That's 
really where your bill helps us, because your bill draws 
attention to the emission reduction elements of the port plan, 
and, in terms of diesel particulates, we need to reduce the 
emissions from those vessels.
    So, basically, we are here to say that we support the bill. 
We urge you to go forward, and we believe it'll give the United 
States the position it needs in those international 
negotiations.
    Thank you.
    [The prepared statement of Dr. Knatz follows:]
       Statement of Geraldine Knatz, Ph.D., Executive Director, 
                          Port of Los Angeles
                                welcome
    Senator Boxer (and members of the committee), thank you for 
scheduling this important congressional hearing today, and I want to 
welcome you back to the Port of Los Angeles, because I know you are no 
stranger to the Port. I appreciate you inviting me to participate in 
this field hearing on ``The Marine Vessel Emission Reduction Act of 
2007'' and on behalf of the Los Angeles Board of Harbor Commissioners, 
I appreciate your leadership (and that of Congresswoman Hilda Solis) in 
introducing S. 1499 and H.R. 2548. I also want to thank Senator Dianne 
Feinstein for her sponsorship of this important legislation, and 
Representative Jane Harman for her support of H.R. 2548. The reduction 
of emissions from ships is a key component of the Port's Clean Air 
Action Plan, which I will address in more detail in my testimony.
         port of l.a.'s efforts to green the maritime industry
    Senator Boxer, your support of the California EPA waiver bill, 
which will help our state and twelve other states establish greenhouse 
gas emissions regulation on our own without waiting for the EPA to act 
on our behalf, speaks to your recognition of the sense of urgency that 
we collectively need in order to reduce the adverse affects of air 
emissions that contribute to global warming. And I know that you are 
personally aware of the Port of Los Angeles' efforts to bring greener 
measures to the maritime industry because you have been our champion in 
Washington, D.C. to push for the ratification of the MARPOL Annex VI 
treaty, which would allow the U.S. to establish a North American Sulfur 
Emissions Control Area to reduce ship emissions from ocean going 
vessels.
    Changing treaties is a long, long row to hoe. And while the IMO is 
an honorable organization, waiting for the IMO to make these kinds of 
changes is like watching paint dry! But reducing harmful ship emissions 
is such a critical initiative that it's something that we need to 
pursue at all levels--through local and state actions, through our 
elected leaders in Washington D.C., and through international treaties. 
But that's not all, at the Port of Los Angeles we're aggressively 
campaigning for a greener maritime industry through collaborative 
efforts with other Ports around the world. Last December, the Port of 
Los Angeles--with support from the U.S. EPA, the South Coast Air 
Quality Management District, the U.S. Maritime Administration and the 
Shanghai Municipal Port Administration Bureau--hosted more than 25 
Pacific Rim ports for the inaugural Pacific Ports Clean Air 
Collaborative Conference. The 3-day meeting here in Los Angeles was 
held to discuss challenges and solutions to air pollution created by 
port operations.
    At this meeting we rolled up our sleeves and discussed technical, 
operational and even business challenges that are common to all ports 
in terms of trying to affect changes on-site and with the maritime 
industry at large. We wrapped up the conference with a ceremonial 
commitment among the participants to set future conferences so that we 
may continue to share intelligence about emerging technologies and best 
practices.
    Sharing intelligence from port to port is especially critical. From 
our standpoint at the Port of Los Angeles, we have invested tens of 
millions of dollars into research to really delve into the measurement 
of emissions from all port-related sources and the impact of those 
emissions not only on the communities surrounding our ports, but the 
entire South Coast Air Basin. We have a monumental air quality problem 
here in Southern California; and we have mobilized a monumental effort 
to improve air quality by reducing port-related air emissions. To that 
end, we don't see the need for other ports around the world to re-
create the wheel. Instead, we are urging ports around the world to take 
pages from our air quality playbook--literally. For example, we are in 
the process of creating an Internet-based ``Clean Air Tool Box'' of air 
emission reduction strategies that ports worldwide can use to implement 
their own Clean Air Strategies.
    This resource, which we also have just vetted with the AAPA--
American Association of Port Authorities--, is a focal point in our 
successful efforts to get the IAPH to adopt a resolution calling on 
ports internationally to create Clean Air Plans that will benefit their 
environments.
    If all these efforts sound pervasive--like we're moving on all 
fronts--well. . . it's because we are. You see, in order to affect 
change in an industry that facilitates global trade, you need to create 
a buzz. You need to practice what you preach, and preach every chance 
you get. You need to be a change agent--a catalyst not only for other 
ports, but for the industry. You need to crusade so passionately for 
cleaner air that it makes other countries, other ports and other 
businesses want to be on your side. And if our efforts work, at the end 
of the day, who will want to be the port that dirty ships go to?
    This industry needs monumental changes, and the time for change is 
now. International trade, especially from the Pacific Rim, is growing 
at an unprecedented pace, far exceeding economic projections. Over the 
past year alone, the amount of containers coming through the Port of 
Los Angeles has increased by 16 percent. By the year 2020, the ports of 
Los Angeles and Long Beach are expected to handle the equivalent of 36 
million, 20-foot containers annually--more than twice the container 
volume flowing through our two ports today. Our prominent position in 
international trade and this projected growth creates major challenges 
for the Port and its infrastructure as well as major challenges in 
working with our international trading partners and their port 
facilities for seamless vessel and port operations.
    Mayor Villaraigosa has stated many times that he wants to grow the 
Port of Los Angeles, creating new jobs and economic opportunity. But 
the Mayor has been clear: the only way we will able to accomodate the 
growth and continue to deliver goods to the state and the Nation is to 
grow green. One of our first significant tests of the Mayor's policy 
will be the expansion of a major cargo shipping terminal operated by 
TraPac, Inc., where we are combining improvements in technology and 
environmental mitigation to handle two-thirds more containers than in 
the past while dramatically reducing the emissions of toxic pollutants 
and health risk impacts on the surrounding communities to below current 
levels. By combining new on-dock rail, fewer and more efficient loading 
cranes, on-shore power for container vessels (known as cold-ironing), 
along with cleaner-burning fuels and pollution control technologies, we 
can expand the TraPac terminal and other terminals in the future while 
reducing their negative impact on the quality of the air we breathe.
    The Port of Los Angeles is a member of the California Climate 
Action Registry, which requires the Port to report Greenhouse Gas 
emissions from port operations. We will be working with CARB to do our 
part in capping greenhouse gas emissions from port-related sources. As 
part of this effort, we believe that the TraPac EIR is also the first 
port project environmental document perhaps even the first EIR in 
California to undertake an assessment and provide mitigation for 
Greenhouse Gases.
                         clean air action plan
    Mayor Villaraigosa has already spoken about the San Pedro Bay Ports 
Clean Air Action Plan, so I will abbreviate my points about our local 
strategy to ``grow green.'' While we take pride in saying that our 
joint Clean Air Action Plan is a local initiative, I think one of the 
most impressive aspects about the Plan is that it illustrates our 
commitment to work with the federal Environmental Protection Agency 
(EPA) Region 9, the California Air Resources Board (CARB), and the 
South Coast Air Quality Management District (AQMD).
    The Clean Air Action Plan is an ambitious plan that will cut 
overall emissions in half even while we continue to grow our 
operations. Two strategic principles are driving our actions with 
regard to the Clean Air Action Plan. First, the Port believes it is 
essential that key infrastructure projects and public health-related 
environmental improvements are implemented in an integrated and 
coordinated fashion. The state's goods movement action plan calls for 
``simultaneous and continuous'' improvement in goods movement 
infrastructure and environmental mitigation. We will make this concept 
a reality at the San Pedro Bay Ports. In order for the ports to realize 
``green growth,'' we will pursue a sustainable and smart strategy of 
investment and use the leverage we have with our customers to assure 
that this happens.
    Second, the Port is aggressively pursuing a common goods movement 
action agenda with our regional partners. Along with Caltrans, SCAG, 
Los Angeles MTA, and other regional agencies in the Inland Empire and 
Orange County, we are forging a cooperative vision and strategic 
program to move goods more efficiently, increase capacity and address 
the associated public health issues in Southern California. Our 
solution is a regional solution. For our part, the ports are working 
with customers to ensure they understand the important of their 
contribution to not only the projects in San Pedro Bay but to regional 
projects as well.
    A primary of the Clean Air Action Plan is reducing the emissions 
from ocean-going vessels arriving and departing the San Pedro Bay 
Ports, and tied up at berths while they transfer cargo. To reduce 
transit emissions, the ports will utilize a combination of operational 
and technology strategies targeted at vessel speed reduction, cleaner 
fuels in auxiliary and main engines, and integrating emission reduction 
technologies. Today we have two terminals at the Port of Los Angeles 
where ships can plug into shore-side power while at berth. We should 
have our cruise ship terminal AMP-ready by the end of next year. Just 
recently, we signed off on plans to construct an AMP connection at a 
third container terminal; so this is a program that we are moving 
forward fairly aggressively as part of the Clean Air Action Plan.
    But shore-side control of vessel emissions is not enough, and 
that's where the Marine Vessel Emissions Reduction Act comes in. Your 
bill can play a very important role in our Clean Air Action Plan by 
helping us draw attention to the emissions reduction elements of the 
ports' plan as they address ocean-going vessels. In terms of diesel 
particulate and sulfur oxides emissions, ocean-going vessels contribute 
59 percent and 90 percent, respectively of all port-related emissions. 
In fact, the emissions generated by one ship transiting weekly between 
Shanghai and Los Angeles is greater than all the emissions generated by 
all the sources in our port for an entire year. To that end, addressing 
marine vessel emissions must be a national priority.
    The Marine Vessel Emissions Reduction Act goes beyond MARPOL Annex 
VI and puts the U.S. in the lead on establishing vessel emission 
reductions standards, sending a very important statement to the 
International Maritime Organization (IMO) that the U.S. is squarely on 
board with regard to managing the emissions affecting our ports and the 
region. It also would give the IMO more support as it works to bring 
all nations on board in strengthening the treaty, and it gives the U.S. 
EPA the backing it needs as our Nation's representative to IMO.
    Ultimately, we also believe that the federal application of lower 
sulfur fuel requirements will give shipping lines a greater incentive 
to accept rather than oppose these cleaner emission standards on an 
international basis, and this proposed legislation provides an 
alternative compliance mechanism for industry innovation. We believe 
that comprehensive, nationwide standards benefit industry more than 
local standards imposed through a lease-by-lease approach we take with 
our customers because it levels the playing field as the shipping lines 
will all be obligated to switch to higher quality, lower sulfur fuel at 
the same time. To that end, the Port applauds your leadership in 
forging this aggressive standard for our Nation. It's very 
complementary to the ambitious steps our two local ports are taking as 
we move toward implementation of our Clean Air Action Plan, and that is 
why we have endorsed your bill.
                           summary and close
    In closing, we very much appreciate your coming to the Port of Los 
Angeles today. We are grateful for all your work on these issues, which 
are such a priority for us and our neighbors throughout Southern 
California, and we are glad to have had the opportunity to share with 
you how the Marine Vessel Emission Reduction Act can help our air 
quality and Clean Air Action Plan efforts here in Southern California.

    Senator Boxer. Thank you so very much, Dr. Knatz.
    Mr. Steinke.

STATEMENT OF RICHARD STEINKE, EXECUTIVE DIRECTOR, PORT OF LONG 
                             BEACH

    Mr. Steinke. Thank you, Madam Chair.
    Commissioner Freeman, thank you for those comments about 
the cooperative spirit in which these two ports work in San 
Pedro Bay.
    Thank you for inviting me to speak, today.
    The Port of Long Beach would like to commend Senators Boxer 
and Feinstein and Congresswoman Hilda Solis, and the other 
members, for their forward-thinking legislative proposal that 
tackles marine vessel emissions.
    As you may be aware, in 2006 the Port of Long Beach and the 
Port of Los Angeles embarked on an aggressive program to tackle 
port-related air pollution. Through a cooperative effort with 
the EPA, California Air Resources Board, and the South Coast 
Air Quality Management District, we developed what Geraldine 
mentioned was the Clean Air Action Plan, and that would reduce 
port-related air pollution by over 45 percent within the next 5 
years. Significantly, it will be done during a time when port 
trade is expected to grow significantly, as you've heard in 
previous testimony.
    To give you an idea of the magnitude of what that entails, 
the San Pedro Bay Port Complex is one of the largest port 
complexes in the world, as we know. We are the entry port for 
over 40 percent of the goods, and more than $275 billion worth 
of cargo passes through the ports every year. Last year, about 
5,300 vessels called at the ports. We expect that figure to 
grow significantly in the future.
    As you also know, the ports are located in the South Coast 
Air Quality Basin, an area that currently experiences some of 
the worst quality--air quality in the Nation. We must move 
forward aggressively to implement programs that will reduce the 
air-pollutant burden in our communities and reduce health risks 
of our citizens.
    Although the Clean Air Action Plan provides a roadmap for 
significant air quality improvements, we are not a regulatory 
agency, and our authority is limited. We are working closely 
with the EPA, Air Quality Resources Board, and AQMD to 
implement the regulatory programs at the local, State, and 
Federal level that will assist us in meeting our Clean Air 
Action Plan goals. The language in Senate Bill 1499 and House 
Bill 2548 is in lockstep with the control measures proposed for 
oceangoing vessels in the Clean Air Action Plan. The Port of 
Long Beach fully supports the Senate and the House versions.
    We have taken our own action, creating new standards for 
oceangoing vessels, because the IMO's MARPOL Annex process is 
not fast enough, as you've well heard from the other people 
testifying today.
    That said, however, oceangoing vessel emissions are a 
global issue and are best controlled at the Federal and 
international level, as opposed to the local regulation that 
could result in undue economic burden or individual 
nonattainment areas, or individual operations. The legislation 
will complement the oceangoing vessel measures included in our 
Clean Air Action Plan by requiring that oceangoing vessels use 
distillate or marine gas oil fuels with significantly reduced 
sulfur content in main and auxiliary engines. Several forward-
thinking vessel carriers, including Maersk and APL, have 
already proven that the use of this fuel can be accomplished 
and is available in the open market.
    The legislation also calls for EPA to set stronger 
standards for new-vessel engines and to utilize advanced 
control technologies to maximize emission reductions. This is 
also complementary to our measure in the Clean Air Action Plan, 
which calls for maximizing emission reductions from vessel 
engines by using advanced control technologies.
    The ports are also aggressively implementing other Clean 
Air Action Plan measures, in addition to those already 
discussed. For example, we are moving forward with the design 
and installation of ``cold ironing'' infrastructure throughout 
the port so that vessels at berth can use shoreside electricity 
rather than relying on their auxiliary engines. This will 
immediately result in zero emissions from vessels at berth. We 
also continue to see great success with our Green Flag Vessel 
Speed Reduction Program, where vessels reduce their speed to 12 
knots within 20 nautical miles of Point Fermin. By going 
slower, vessels use less fuel, and therefore, produce less 
pollution. Building on our previous success with voluntary 
program at the Port of Long Beach, it increased our 
participation from approximately 80 percent last year to 90 
percent, using incentives and a Green Flag Recognition Program.
    Considering the vessels calling at both San Pedro Bay 
ports, the Vessel Speed Reduction Program, alone, results in 
greater than 800 tons per year of air pollution eliminated from 
transiting vessels.
    While we are continuing to move forward with many vessel-
related strategies, we feel that the Marine Vessel Emissions 
Reduction Act of 2007 provides the Federal partnership and 
leadership needed to assist the South Coast Air Quality Basin 
in attaining national ambient air quality standards. This 
legislation will also level the playing field by providing 
consistent standards nationwide.
    The Port of Long Beach remains dedicated to implementing 
innovative programs, like the Green Port Policy and the Clean 
Air Action Plan, designed to improve air quality. Therefore, we 
support the Marine Vessel Reductions Act of 2007, as proposed, 
and look forward to working with you as you continue to lead us 
in this challenge.
    [The prepared statement of Mr. Steinke follows:]
  Statement of Richard Steinke, Executive Director, Port of Long Beach
    Thank you for inviting me to speak today. The Port of Long Beach 
would like to commend Senators Boxer and Feinstein and Congresswoman 
Hilda Solis for their forward thinking legislative proposal that 
tackles Marine Vessel Emissions.
    As you may be aware, in 2006, the Ports of Long Beach, and Los 
Angeles, embarked on an aggressive program to tackle port-related air 
pollution. Through a cooperative effort with the U.S. Environmental 
Protection Agency, the California Air Resources Board, and the South 
Coast Air Quality Management District, we have developed--the Clean Air 
Action Plan--CLEAN AIR ACTION PLAN. . . that will reduce Port related 
air pollution by over 45 percent within the next 5 years. 
Significantly, it will be done during a time when port trade is 
expected to grow significantly.
    To give you an idea of the magnitude of what that entails, the San 
Pedro Bay Port complex, is one of the largest port complexes in the 
world. We are the entry point for over 40 percent of the goods coming 
into the United States. More than $275 billion worth of cargo passes 
through the ports every year. Last year, about 5,300 vessels called at 
the ports and we expect that figure to grow significantly in the 
future.
    As you know the ports are located in the South Coast Air Basin, an 
area that currently experiences some of the worst air quality in the 
Nation. We must move forward aggressively to implement programs that 
will reduce the air pollutant burden in our communities and reduce 
health risks to our citizens.
    Although, our CLEAN AIR ACTION PLAN provides a roadmap for 
significant air quality improvements we are not a regulatory agency and 
our authority is limited. We have been working closely with the EPA, 
CALIFORNIA AIR RESOURCES BOARD and SOUTH COAST AIR QUALITY MANAGEMENT 
DISTRICT to implement regulatory programs at the local, state, and 
federal level that will assist us in meeting our CLEAN AIR ACTION PLAN 
goals.
    The language in S 1499 and H 2548 is in lock step with the control 
measures proposed for Ocean Going Vessels in the Clean Air Action Plan. 
The Port of Long Beach fully supports the Senate and House proposals.
    We have taken our own action, creating new standards for Ocean 
Going Vessels because the INTERNATIONAL MARITIME ORGANIZATION's MARPOL 
Annex process has not been fast enough or strong enough to meet our 
regional needs.
    That said however Ocean Going Vessel emissions are a global issue, 
and are best controlled at the federal or international level, as 
opposed to local regulation that could result in an undue economic 
burden on individual non-attainment areas or individual operations.
    The legislation, will compliment the Ocean Going Vessel measures 
included in the CLEAN AIR ACTION PLAN by requiring that OGVs use 
distillate or MGO fuels with a significantly reduced sulfur content in 
main and auxiliary engines.
    Several forward thinking vessel carriers, including Maersk and APL, 
have already proven that use of this fuel can be accomplished.
    The legislation also calls for EPA to set strong standards for new 
vessel engines and to utilize advanced control technologies to maximize 
emission reductions. This is also complimentary to our measure in the 
CLEAN AIR ACTION PLAN, which calls for maximizing emission reductions 
from vessel engines by using advanced control technologies.
    The ports are also aggressively implementing other CLEAN AIR ACTION 
PLAN measures in addition to those already discussed. For example, we 
are moving forward with the design and installation of cold-ironing 
infrastructure throughout the port so that vessels at berth can use 
shore side electricity rather than relying on their auxiliary engines. 
This will immediately result in ZERO emissions from vessels at berth. 
We also continue to see great success with our Green Flag vessel speed 
reduction program, where vessels reduce their speed to 12 knots within 
20 nautical miles of Point Fermin. By going slower vessels use less 
fuel and therefore produce less air pollution. Building on our previous 
success with this voluntary program the Port of Long Beach increased 
participation from approximately 80 percent last year to over 90 
percent today using incentives and a ``Green Flag'' recognition 
program. Considering the vessels calling at both San Pedro Bay Ports 
the vessel speed reduction program results in greater than 800 tons/
year of air pollution eliminated from transiting vessels.
    While we are continuing to move forward with many vessel related 
strategies, we feel that the Marine Vessel Emissions Reduction Act of 
2007 provides the federal partnership needed to assist the South Coast 
Air Basin in attaining the National Ambient Air Quality Standards.
    This legislation will also level the playing field providing 
consistent standards nationwide.
    The Port of Long Beach remains dedicated to implementing innovative 
programs like our Green Port Policy and the Clean Air Action Plan, 
designed to improve air quality. Therefore we support the Marine Vessel 
Emission Reduction Act of 2007 as proposed and--look forward to working 
with you to ensure that we reduce air emissions and improve air quality 
in the region.

    Senator Boxer. Thank you so much, both of our executive 
directors.
    We're really pleased to have a good, fair look at the 
impacts of air pollution on our people, so, with that in mind, 
Professor Edward Avol, School of Medicine, University of 
Southern California, followed by Dr. John G. Miller, from the 
San Pedro community.

  STATEMENT OF EDWARD L. AVOL, PROFESSOR, SCHOOL OF MEDICINE, 
               UNIVERSITY OF SOUTHERN CALIFORNIA

    Mr. Avol. Thank you, Madam Chair.
    Senator Boxer. Professor.
    Mr. Avol. I participate in health-effects research and 
exposure research, and I'm one of the investigators 
participating in the National--in the California Children's 
Health Study, which is a multiyear study looking at the 
respiratory health development of over 11,000 California 
schoolchildren.
    I'm here today to talk about the health effects of 
pollutants. There are four main points I'd like to make.
    First, that air pollution health effects are measurable and 
substantial. There are a lot of health-effects research going 
on in cardiovascular and respiratory research, particularly 
focused on the health effects of air pollution. Our research at 
USC is focused on schoolchildren and the effects of air 
pollution as they transition through their youth into 
adulthood.
    Every child deserves a healthy start. Every child deserves 
a chance to have their lungs fully develop. But, sadly, many of 
them don't get that chance. Our studies have shown that 
children that grow up in more polluted areas have slower-
growing lungs, and that, after years of losing a percent or two 
of lung growth compared to their peers growing up in cleaner 
communities, children in more polluted communities have higher 
rates of clinically significant low lung function and a 
decreased ability to move air through their lungs, just because 
of the air that they breathe. Children with asthma who live in 
more polluted communities have more respiratory symptoms. These 
observations are important, because we know that low lung 
function is a predictor of respiratory disease later in life, 
and even of early death.
    Of course, air pollution effects are not just limited to 
children. In adults, long-term exposure to combustion--related 
pollution, such as exhaust from cars, trucks, planes, and 
ships, has been shown to result in increased atherosclerosis, 
increased heart attacks, emergency room visits, and death. 
Among pregnant mothers, air pollution effects have been linked 
to low birth weights, premature births, and some heart-related 
birth defects.
    So, for a range of health outcomes in numerous segments of 
the population, the long-term effect of air pollution can be 
serious.
    Second, I'd like to point out that the ports here account 
for a large portion of the pollution, as has been pointed out 
by other speakers this morning. Los Angeles continues to 
struggle to meet the national ambient air quality standards. 
Millions of people in our region regularly breathe what the 
U.S. EPA has determined to be unacceptably dirty and unhealthy 
air. Even with the aggressive and progressive policies with the 
South Coast Air Quality Management District and the State of 
California, the air in this basin is unlikely to meet clean air 
standards until 2014 for particulates, and 2023 for ozone.
    Port inventories have confirmed the importance of 
oceangoing vessels in both port and regionwide pollutions. As 
you pointed out before, ships account for over 59 percent of 
the port particle pollution, over 36 percent of oxide of 
nitrogen, and over 90 percent of sulfur oxides. Across the 
entire basin, the port alone accounts for an eighth of all 
diesel pollution here, almost a tenth of all NOx, and almost 
half of the region's SO<INF>2</INF>. So, these levels are too 
high, and they cause both primary and secondary effects.
    I've talked a little bit about the health primary effects. 
On the secondary side, I would point out that the gaseous 
sulfur dioxide and the gaseous NOx that is emitted here and 
throughout the basin undergo chemical reactions n the air with 
sunlight and the other chemicals and form other air pollutants, 
particulates and ozone, downwind as it moves across the basin. 
So, the sulfur and the dirty fuels here, and the NOx emitted 
from fuels here, contribute to the--throughout the region to 
increased particles, increased haze, and increased ozone.
    Though motor vehicles are undeniably a major portion of the 
problem here in Southern California, the ports are singularly 
identifiable as an important source, as well.
    Point No. 3, port activities here disproportionally affect 
Southern California. We've talked about the ports being the 
largest here among the ports in the world; by far, the largest 
operation in the United States. We're a critical link for 
Pacific Rim countries, and almost half of the cargo comes 
through the United States--entering the United States comes 
through these two ports.
    Accordingly, much of the goods, in terms of cargo, goes 
through here to the rest of the country, but much of the bad, 
in terms of the pollution health impacts, stay right here.
    Simply put, we need the Federal Government to step up and 
provide increased leadership, additional funding, and adequate 
protection for the health of Southern Californians living near 
the ports.
    Finally, point No. 4, pollution reduction now affects 
children's health now. Research from our children's health 
studies have shown that changes in air quality during a child's 
teen years can directly affect lung health. When lungs are 
rapidly growing, if a child moves to a more polluted area, the 
rate of growth generally slows down; and if a child moves to a 
cleaner area, the rate of growth generally accelerates and 
speeds up.
    What this suggests is that cleaning up the air in a child's 
community during the time that that child is growing can 
measurably change the child's rate of growth. Improved 
respiratory growth, we believe, improves the child's prognosis 
for future respiratory health.
    The air quality in this region will not meet national 
standards for at least another 7 years for particulates, and 
then perhaps another 16 for ozone. Failing to do more to 
cleanup the air here quicker is condemning the current 
generation of children to lower achieved lung growth and higher 
risk for later respiratory disease.
    We're reach responsible for ourselves and our environment, 
and we each have an obligation to future generations. We must 
ensure that the environment we leave is better than the one we 
inherited and the health of the next generation is not 
imperiled by our own behavior. As responsible mothers and 
fathers, we can strive for no less. As regulators, we ask that 
you should consider this not to be the ceiling for your 
objectives, but, rather, the floor.
    Thank you.
    [The prepared statement of Mr. Avol follows:]
   Statement of Edward L. Avol, Professor, Department of Preventive 
              Medicine, University of Southern California
    Good morning. My name is Ed Avol. I am a Professor in the 
Environmental Health Division of the Department of Preventive Medicine, 
at the Keck School of Medicine, at the University of Southern 
California (USC). I direct and participate in numerous health and 
exposure research studies, many funded by the National Institutes of 
Health, to understand the relationships between environmental exposure 
and human health. I am specifically interested in the effects of air 
pollution on children, and I am one of many investigators participating 
in the Children's Health Study, a multi-year investigation of the long-
term effects of air pollution in over 11,000 California school 
children.
    I appreciate the opportunity to share with you some of the current 
scientific research regarding the health effects of air pollution, and 
I am here today to speak about the health effects of pollutants 
associated with port operations.
    There are four main points I would like to emphasize this morning:
    (1) The health effects of air pollution are measurable and 
substantial.
    (2) Port operations, specifically ocean-going vessels, account for 
a large portion of the pollution problem here in Southern California.
    (3) Pollution and health impacts by port operations are 
disproportionately borne by the local region.
    (4) Pollution reductions made now affect children's health now in 
measurable and meaningful ways.
  point no. 1: the health effects of air pollution are measurable and 
                              substantial
    There has been a great deal of published research in recent years 
on the effects of pollution on respiratory and cardiovascular health. 
Our main body of research has focused on school children, and the 
effects of air pollution on their respiratory health as they develop 
into adulthood.
    Every child deserves a healthy start, a chance for their lungs and 
respiratory system to fully develop and provide them with the capacity 
and capability to breathe--but sadly, many children do not get that 
equal chance. Our studies have shown that children growing up in more 
polluted communities have slower-growing lungs<SUP>1, 2</SUP> and that 
after years of losing a percent or two of lung growth each year 
compared to their peers growing up in communities with cleaner air, 
children in more polluted communities have higher rates of clinically 
significant low lung function and decreased ability to move air through 
their respiratory system<SUP>3</SUP>--just because of the quality of 
the outdoor air they breathe. Children with asthma have more symptoms 
and respiratory problems in more polluted communities<SUP>4</SUP>, and 
these observations are important because low lung function is a 
predictor for respiratory disease later in life and even early 
death<SUP>5, 6, 7, 8</SUP>.
    The documented effects of air pollution on humans are not limited 
to children. In adults, long-term exposure to pollutants associated 
with combustion exhaust (that is, energy production for power 
generation, and to move cars, trucks, planes, and ships) have been 
shown to result in increased risk for cardiovascular disease such as 
atherosclerosis<SUP>9, 10, 11</SUP>, increased heart 
attacks<SUP>12</SUP>, increased emergency room visits for acute health 
events<SUP>13</SUP>, and increased rates of death<SUP>14</SUP>. Among 
pregnant mothers, air pollution has been linked to low-birthweight 
babies<SUP>15</SUP>, premature births<SUP>16</SUP>, and some heart-
related birth defects<SUP>17</SUP>. So for a range of health outcomes 
in numerous segments of the population, the long-term effects of air 
pollution can be serious and persistent.
    point no. 2: port operations account for a large portion of the 
                pollution problem in southern california
    As you have heard from the state and regional air regulatory 
agencies, the Los Angeles Basin and the larger regional area continues 
to struggle to meet the current National Ambient Air Quality Standards 
(NAAQS). Millions of people in this region regularly breathe what the 
U.S. Environmental Protection Agency deems to be unacceptably dirty and 
unhealthy air. Even with the aggressive and progressive policies of the 
South Coast Air Quality Monitoring District and additional measures by 
the State of California, the air in this region is unlikely to meet the 
current NAAQS until after 2014 for PM and 2023 for ozone<SUP>18</SUP>.
    Recent inventories conducted in the Ports of Los Angeles and Long 
Beach have confirmed the importance of ocean-going vessels in port and 
regional emissions. Based on the Ports' own 2001/2002 inventories, 
ships account for about 59 percent of the particle pollution, 36 
percent of the oxides of total nitrogen, and 90 percent of the sulfur 
oxides<SUP>19</SUP>. Port emissions alone account for about 12 percent 
of basin-wide diesel pollution, about 9 percent of total NOx, and about 
45 percent of total sulfur oxides. These levels are unacceptably high, 
and have both direct and subtle effects. Some of the direct effects of 
pollutant emissions are being discussed here this morning. The subtle 
effects arise from the fact that gaseous sulfur oxides in the air 
undergo photochemical reactions resulting in increased particle 
sulfate, and gaseous nitrogen oxides emissions are involved in a 
similar photochemical transformation leading to increased ozone. 
Therefore, the sulfur in dirty fuels and the NOx from port emissions 
also contribute downwind and throughout the Southern California region 
to increased particle and ozone pollution. Although motor vehicles are 
undeniably a major contributor to much of the air pollution in Southern 
California, the ports, as an area source, are a singularly identifiable 
and important source of pollution, as well.
   point no. 3: pollution and health impacts by port operations are 
              disproportionately borne by the local region
    The ports of Long Beach and Los Angeles are among the largest in 
the world, and they are the largest complex (in terms of cargo boxes 
processed) in the United States. Southern California is a critical link 
for Pacific Rim countries; almost half of the total cargo entering the 
United States enters through these two ports. Accordingly, much of the 
``goods'', in terms of cargo intended for the rest of the country, move 
through the Southern California region, but much of the ``bads'', in 
terms of pollution and health impacts, stay right here. Simply put, we 
need the Federal Government to step up and provide improved leadership, 
additional funding, and adequate protection for the health of Southern 
Californians and all Americans living near our Nation's seaports.
point no. 4: pollution reductions made now affect children's health now 
                   in measurable and meaningful ways
    Published research from the Children's Health Study has shown that 
changes in air quality achieved during a child's teen years of lung 
development can directly affect lung health<SUP>20, 21</SUP>. While 
their lungs are rapidly growing, a child who moves to a more polluted 
area will generally find that their lung growth rate slows down to 
mimic the rate of children who have been living in the more polluted 
community. Conversely, a child who moves to a cleaner area will begin 
to grow at a faster rate, more like children who have been living in 
the cleaner area for longer periods of time. This suggests that 
cleaning up the air in a child's community during the period of that 
child's respiratory growth can measurably change the child's rate of 
lung growth. Improved respiratory growth, we believe, improves 
children's prognosis for future respiratory health and quality of life.
    It has been noted this morning that this region's air quality will 
not meet current National Air Quality Guidelines for at least another 7 
years for particles, and perhaps not for another 16 years for ozone. 
Failing to do more at a quicker pace is akin to condemning the current 
generation of children to lower achieved lung growth and higher risk 
for later respiratory disease.
    We are each entrusted to be responsible wards of our environment 
and to do whatever we can for succeeding generations. We must ensure 
that both the environment we leave is better than the one we inherited, 
and that the collective health of the next generation is not imperiled 
by our current behavior. As responsible mothers and fathers, we should 
strive for no less. As responsible regulators and policy makers, you 
should consider this to be not the ceiling for your objectives, but the 
floor.
    Thank You.
                                 ______
                                 
References:
    1. Gauderman WJ, McConnell R, Gilliland F, London S, Thomas D, Avol 
E, Vora H, Berhane, K, Rappaport EB, Lurmann F, Margolis HG, Peters JM. 
Association between air pollution and lung function growth in Southern 
California children. Am J Resp Crit Care Med162:1383-1890, 2000.
    2. Gauderman WJ, Gilliland F, Vora H, Avol E, Stram D, McConnell R, 
Thomas D, Lurmann F, Margolis H, Rappaport E, Berhane K, Peters J. 
Association between air pollution and lung function growth in Southern 
California children: results from a second cohort. Am J Respir Crit 
Care Med 2002; 166(1):76-84.
    3. Gauderman WJ, Avol E, Gilliland F, Vora H, Thomas D, Berhane K, 
McConnell R, Kunzli N, Lurmann F, Rappaport E, Margolia H, Bates D, 
Peters J. The effect of air pollution on lung function development in 
children aged 10 to 18 years. N Eng J Med 2004;351:1057-67.
    4. McConnell R, Berhane K, Gilliland F, London SJ, Vora H, Avol E, 
Gauderman WJ, Margolis HG, Lurmann F, Thomas DC, Peters JM. Air 
pollution and bronchitic symptoms in Southern California children with 
asthma. Environ Health Perspect 107(9):757-760, 1999.
    5. Ashley F, Kannel WB, Sorlie P, Masson R Pulmonary function: 
relation to aging, cigarette habit, and mortality. The Framingham 
Study. An Int Med 1995; 82:739-45.
    6. Bang KM, Gergen PJ, Kramer R, Cohen B. The effect of pulmonary 
impairment on all-cause mortality in a national cohort. Chest 
1993;103:536-40.
    7. Hole DJ, Watt CM, Davey-Smith G, Hart CL, Gillis CR, Hawthorne 
VM. Impaired lung function and mortality risk in men and women: 
findings from the Renfrew and Paisley prospective population study. BMJ 
1996;313:711-15.
    8. Ebi-Kryston KL. Respiratory symptoms and pulmonary function as 
predictors of 10-year motrality from respiratory disease, 
cardiovascular disease and all causes in the Whitehall study. J Clin 
Epidemiol 1988;41(3):251-60.
    9. Kunzli N, Jerrett M, Mack WJ, Beckerman B, LaBree L, Gilliland 
F, Thomas D, Hodis HN. Ambient air pollution and atherosclerosis in Los 
Angeles. Environ Health Perspect, 2005 Frb:113(2):201-6.
    10. Miller KA, Siscovick DS, Sheppard L, Shepherd K, Sullivan JH, 
Anderson GL, Kaufman JD. Long-term exposure to air pollution and 
incidence of cardiovascular events in women. N Engl J Med 2007 Feb 
1:356(5):447-58.
    11. Hoffman B, S Moebus, S Mohlenkamp, A Stang, N Lehman, D 
Dragano, A Schmermund, M Memmesheimer, K Mann, R Erbel, K-H Jockel, and 
for the Heinz Nixdorf Recall Study Investigative Group. 2007. 
Residential Exposure to Traffic is Associated with Coronary 
Atherosclerosis. Circulation published online July 16, 2007, DOI: 
10.1161/CIRCULATIONAHA.107693622.
    12. Pope CA, Muhlestein JB, May HT, Renlund DG, Anderson JL, Horne 
BD. Ischemic heart disease events triggered by short-term exposure to 
fine particulate air pollution. Circulation 2006 Dec 5;114(23):2443-8.
    13. Schwartz J, Slater D, Larson TV, Person WE, Koenig JQ. 
Particulate air pollution and hospital emergency room visits for asthma 
in Seattle. Am Rev Respir Dis 1993 Apr; 147(4):826-31.
    14. Jerrett M, Burnett RT, Ma R, Pope CA, Krewski D, Newbold KB, 
Thurston G, Shi Y, Finkelstein N, Calle EE, Thun MJ. Spatial analysis 
of air pollution and mortality in Los Angeles. Epidemiology 2005 
Nov:16(6):727-36.
    15. Wilhelm M, Ritz B. residential proximity to traffic and adverse 
birth outcomes in Los Angeles County, California, 1994-1996. Environ 
Health Perspect, 2003 Feb; 111(2):207-16.
    16. Wilhelm M, Ritz B. Local variations in CO and particulate air 
pollution and adverse birth outcomes in Los Angeles County, California, 
USA. Environ Health Perspect 2005 Sep:113(9):1212-21.
    17. Ritz B, Wilhelm M, Zhao Y. Air pollution and infant death in 
southern California, 1989-2000. Pediatrics, 2000 Aug:118(2):493-502.
    18. Draft Final Air Quality Management Plan, South Coast Air 
Quality Management District, May 2007. http://www.aqmd.gov/aqmp/07aqmp/
07AQMP--draftfinal.html
    19. San Pedro Bay Ports Clean Air Action Plan, Overview, Final 
2006, Ports of Los Angeles and Long Beach.
    20. Kunzli, N, McConnell R, Bates D, Bastain T, Hricko A, Lurmann 
F, Avol E, Gilliland F, Peters J. Breathless in Los Angeles: The 
exhausting search for clean air. Am J Public Health 2003; 93(9):1494-9.
    21. Avol EL, Gauderman WJ, Tan SM, London S, Peters JM. Respiratory 
effects of relocating to areas of differing air pollution levels. Am J 
Respir Crit Care Med 2001;164:2067-72.

    Senator Boxer. Thank you, Doctor.
    [Applause.]
    Senator Boxer. Dr. Miller.

 STATEMENT OF JOHN G. MILLER, M.D., FACEP, SAN PEDRO COMMUNITY

    Dr. Miller. I am Dr. John G. Miller, an emergency 
physician. I live here in the Diesel Death Zone in San Pedro. I 
have practiced in various emergency departments in the South 
Coast Air Basin for more than 30 years. Thank you for this 
opportunity to testify.
    I'm speaking in support of this bill. I will give a 
clinician's perspective on why it should be enacted.
    Welcome to the Diesel Death Zone. We are right here.
    As demonstrated in the MATES 2 study, we have a broad swath 
of severe air pollution that extends from the ports inland 
across the air basin that adversely affects the lives and the 
health of over 14 million citizens. This area has come to be 
known as the Diesel Death Zone. Darkest areas near the ports 
show the highest risk of cancer from breathing air. Heart 
disease shows a similar pattern.
    This ugly swath disproportionately affects lower-income 
communities and minorities in places such as Wilmington, 
Compton, Carson, South Central and East L.A. This map provides 
clear documentation of a serious environmental justice issue.
    The medical literature on the effects of air pollution on 
human health is vast and growing. Many of the important studies 
were done in L.A. at USC and the UCLA School of Medicines. Many 
of these focus on cancer, heart attacks, strokes, chronic 
obstructive pulmonary disease, and asthma, which are all major 
killers. These killers are related to air pollution in a 
largely simple linear fashion, with no known lower threshold of 
safe exposure. More pollution means more disease, death, and 
cost to our society.
    We estimated this region's year--2004 port-related 
healthcare costs at $2.55 billion, with $1.4 billion of this 
attributable to ship exhaust alone. That's only for 1 year. 
California is massively subsidizing this industry when these 
externalized costs are considered.
    My point, however, is that real people are getting sick and 
dying; yet, often large foreign-owned corporations get to make 
maximum profits unhindered by concerns about the health of 
Americans. The medical costs are externalized and borne by our 
citizens.
    Scientists have compared the level of our risk here to that 
of passive smoking. When you apply that risk to millions of 
people, the results are bad.
    The first person I saw die from asthma was when I was a 
medicine intern at L.A. County General Hospital. On a smoggy 
day, a 22-year-old woman came in with severe asthma attack. She 
died before we could save her. It turned out that she was the 
sister of one of our respiratory therapists. I will never 
forget having to tell her sister. It keeps happening.
    Recently, on a routine busy night in the ER, we got a 
sudden call from the paramedics. They were bringing in a 14-
year-old boy in full cardiopulmonary arrest due to an asthma 
attack, 2 minutes away. We got as prepared as we could in 120 
seconds. Soon, were in the hand-to-hand struggle with death and 
destruction that we do fight. This child survived, despite the 
severity of his condition. But in many cases, the person does 
not survive. When that happens, I am the person who must walk 
down the long hallway and sit down with the family and tell 
them that their loved one didn't make it. This is a very tough 
job. It is still as hard as it was the first time. I would like 
not to have to do it so often.
    At 1:30 one July morning 3 years ago in the ER, I saw a 55-
year-old woman complaining of left chest pain. She feared she 
was having a heart attack. My initial evaluation ruled out a 
heart attack, but, unfortunately, I found something far more 
ominous than a mere heart attack. Her chest X-ray showed a 
large tumor mass in her left chest. I feared cancer, but this 
lady had no risk factors for cancer, other than having breathed 
the air here all her life. No history of smoking, radon gas, 
asbestos, et cetera.
    Unfortunately, my fears were proven correct by further 
evaluation. It was lung cancer, and it had spread to the area 
around her heart and to her brain. She died 6 months later. In 
my opinion, she died from air pollution.
    Physicians are seeing increasing numbers of cases like 
these, where the only risk factor seems to be living in the 
Diesel Death Zone. In studying this, I came to realize that, if 
I were able to help reduce the air pollution here by even a few 
micrograms per cubic meter, I would save more lives than I ever 
did working in the ER.
    Thank you for your kind attention.
    [Applause.]
    [The prepared statement of Dr. Miller follows:]

 Prepared Statement of John G. Miller, M.D., FACEP, San Pedro Community
    Good Morning. I am Dr. John G. Miller, an Emergency Physician. I 
live here in the Diesel Death Zone in San Pedro. I have practiced in 
various Emergency Departments in the South Coast Air Basin for more 
than 30 years. I am certified by the American Board of Emergency 
Medicine and I am a Lifetime Fellow of the American College of 
Emergency Physicians. I was originally trained in Radiation Oncology at 
USC Medical Center. (Medical School-Baylor College of Medicine, Houston 
TX, Prof. Societies: Society of Orange County Emergency Physicians, 
Society for Scientific Exploration, Board of Directors: Coalition for a 
Safe Environment, Wilmington, CA. I was the only medical doctor on 
Mayor Hahn's No Net Increase Task Force).
    Thank you for this opportunity to testify.
    I am speaking in support of this bill. I will give a clinician's 
perspective on why it should be enacted. The bill addresses the ship 
pollution problem in a way that is workable and provides a level 
playing field for all West Coast ports and shippers.
    The bill addresses a serious problem we have here in Southern 
California. The twin ports (LA and Long Beach) have been identified as 
the single largest unregulated source of air pollution in the South 
Coast Air Basin. Port related activity (ships, trucks, trains and cargo 
handling equipment) contributes a total of roughly 25 percent of the 
mass of air pollutants in the South Coast Air Basin, Angelenos breathe 
the most unhealthy air in America. In a study done by the Port of Los 
Angeles, ship operations were shown to contribute 55 percent of port 
related air pollution. Thus ships are the largest source of port 
related air pollution. (From: Port Wide Baseline Air Emissions 
Inventory, Final Draft, page 26, June 2004, Port of Los Angeles, 
Starcrest Consulting Group.)
    Large foreign owned or flagged ships have had a free ride. They are 
allowed to use our air as their toxic dumping site. Yet local land 
based businesses have been heavily regulated to prevent this. 
International standards for pollution from ship engines, written mostly 
by the shipping industry, are so lax as to be meaningless.
    Welcome to the ``Diesel Death Zone''. As demonstrated in the MATES 
II study, (Multiple Air Toxics Exposure Study II, March 2000, 
www.aqmd.gov) we have a broad swath of severe air pollution that 
extends from the ports inland across the Air Basin that adversely 
affects the lives and health of over 14 million citizens.). This area 
has come to be known as the Diesel Death Zone. (I show the map of 
cancer risks due to air pollution from MATES II. Darkest areas-near the 
ports-show risks of cancer from breathing air of 5000 to 6000 cases per 
million (I show the map of cancer risks due to air pollution from MATES 
II. Darkest areas--near the ports--show risks of cancer from breathing 
air of 5000 to 6000 cases per million population. Federal Standard for 
this risk from one project should be less than 1 per million 
population, from all sources in an area should be less than 300 cases 
per million population.)
    Attachments A: ``Cancer Risks from Breathing Air-Mates II'' a map 
of our region showing risk stratified areas. This was done by the 
Sierra Club from data supporting figure 5-3a page 5-10 in MATES II. 
This black and white figure (5-3a) is also attached but this figure 
merely shows the high risk areas as large black spots due to printer 
inadequacy. Note that risks of up to 5,800 cases per million are 
demonstrated.
    Attachment B: ``Heart Disease Deaths--1996 Communities in Los 
Angeles County'' (Source L.A. County Dept of Health Services). This map 
illustrates areas with highest numbers of heart disease deaths in 
darker colors. It looks very similar to the Cancer risks map I just 
showed. I assert that some of these heart disease deaths are being 
caused by air pollution from the ports.
    This ugly swath disproportionately affects lower income communities 
and people of color in places such as Wilmington, Compton, Carson, 
South Central and East L.A. This map provides clear documentation of a 
serious environmental justice issue.
    The medical literature on the effects of air pollution on human 
health is vast and growing. Many important studies were done at USC and 
UCLA Schools of Medicine. It would take longer than my 5 minutes to 
read through even a partial list of all the adverse effects related to 
diesel air pollution. Cancer, heart attacks, strokes, chronic 
obstructive pulmonary disease and asthma are major killers (Attachment 
C: ``Health Effects of Diesel Exhaust Air Pollution'', August 28, 2003, 
Port of Los Angeles Port Community Advisory Committee Air Quality 
Group, with references from the medical/scientific literature 
attached). These killers are related to air pollution in a largely 
simple, linear fashion with no known lower threshold of safe exposure. 
More pollution means more disease, death, and cost to our society. 
(Professor Avol wilt cover some childre 's health effects in his 
testimony).
                                 costs
    Industry spokespersons have asserted that the costs of this are 
``unknown and unknowable''. However it is possible to estimate societal 
costs due to ship related air pollution. The Union of Concerned 
Scientists estimated that the cost of ``Health Incidences from diesel 
exhaust in 2004 in the South Coast'' was $10.2 Billion! This was for 
only the one year they studied. (Source: Sick of Soot, Reducing the 
Health Impacts of Diesel Pollution in California, Union of Concerned 
Scientists, June 2004, available at www.ucsusa.org) Knowing that the 
Ports contribute 25 percent of the total pollution causing this, we get 
the Ports total share of the cost as $2.55 Billion. (0.25 x $10.2 
Billion-$2.55 Billion). Then, knowing from the Emissions Inventory that 
ships contribute 55 percent of the total Port related air pollution 
(DPM), we find that the total health care cost from ship exhaust alone 
is $1.4 Billion! (0.55 x $2.55 Billion=$1.4 Billion)
    That is $1,400,000,000 in health care costs to be born by our 
citizens!
    We further crunched these numbers, comparing total port related 
health costs and number of ship calls. We obtained the astonishing 
result that it appears that each large ship call at the Ports is 
generating a cost to society of $315,000 to $455,000! California is 
massively subsidizing this industry when externalized costs are 
considered.
    More on this can be found in Paying With Our Health, The Real Cost 
of Freight Transport in California. The Pacific Institute, June 2006 
available at www.pacinst.org.
    Another way to look at this is to use the US EPA's ``value of one 
premature death in 2004 dollars''. The value set by EPA was $6 Million 
per avoidable premature death. Union of Concerned Scientists estimated 
1400 premature deaths from air pollution in the South Coast Air Basin 
in 2004. The twin Port's share of these would be 246 deaths. (0.25 of 
total pollution x 1400 deaths from pollution=246 deaths) The value of 
these would be $1,476,000,000. (246 deaths x $6 million per death = 
$1.476 Billion!)
    These are disturbing numbers. However my point is that real people 
are getting sick and dying. Yet, large often foreign owned corporations 
get to make maximum profits unhindered by concerns about the health of 
Americans. The medical costs are externalized and born by our citizens.
    Often we cannot absolutely say that air pollution caused an 
individual heart attack, stroke, cancer case, sudden death etc. (The 
tobacco industry used this dodge for decades!) However the 
epidemiologists have shown, in aggregate, air pollution is responsible 
for a significant fraction of the total of these cases.
    I have treated cases, seen fatalities that appear to be pollution 
related.
    In my years as an Emergency Medicine physician I have of course 
seen hundreds of fatal or near fatal cases of the illnesses we 
associate with air pollution. Some stand out in my mind. In my brief 
time to testify, I can share only a few cases with you.
    On a routine busy night in the ER we got a sudden call from the 
paramedics. They were bringing in a 14-year-old boy in full 
cardiopulmonary arrest due to an asthma attack. Two minutes away. We 
got as prepared as we could in 120 seconds and soon we were in the 
hand-to-hand struggle with death and destruction we often fight.
    This child survived despite the severity of his condition.
    But in many cases, the person does not survive. When that happens, 
I am the person who must walk down the long hallway, sit down with the 
family and tell them their loved one didn 't make it. This is a very 
tough job. I would like not to have to do it so often. Enactment of 
this bill will prevent many needless premature deaths and enormous 
related costs in America.
    More cases from my own experience:
    At 1:30 one July morning 3 years ago, in the ER, I saw a 55-year-
old woman complaining of left chest pain. She feared she was having a 
heart attack. My initial evaluation ruled out a myocardial infarction 
(heart attack) but unfortunately I found something far more ominous 
than a ``mere'' heart attack. Her chest x-ray showed a large tumor mass 
in her left chest. I feared cancer, but this lady had no risk factors 
for cancer other than having breathed the air here all her life (no 
history of smoking, radon gas exposure, asbestos exposure, second hand 
smoke at work). Unfortunately, my fears were proven correct by further 
evaluation. It was lung cancer and it had spread to the area around her 
heart and her brain. She died 6 months later. In my opinion she died 
from air pollution.
    Eighteen months ago, the 48-year-old wife of one of my colleagues 
developed a nagging dry cough. Debbie was a fit nonsmoking, ``no risk 
factor'' person. Her workup revealed lung cancer. As 90-95 percent of 
lung cancer victims do, she died after a lot of suffering. It was my 
sad duty to prescribe morphine tablets when she ran out in her last 
week of life. Her funeral was attended by hundreds of mourners. I was 
one of them. She left behind a devastated family including one 12-year-
old child with special needs who still really needs his mother. Air 
pollution was the most likely cause of her death.
    The point here is that we are not just talking about ``numbers''. 
Real people are sick and dying. Physicians are seeing increasing 
numbers of cases like these where the only risk factor seems to be 
living in the Diesel Death Zone.
    ``But enactment of this bill will send the freight to other ports 
and destroy many jobs here!'' This is one standard response from 
industry to any proposals that would seek to limit their ability to 
burn the cheapest, dirtiest fuel in their ships.
    The best response to this was actually provided by the Port of Los 
Angeles. In a recent Draft Environmental Impact Report for a major 
terminal expansion/increased throughput project, the options of 
diversion of cargo to other West Coast ports inside and outside 
Southern California was considered and studied. The Port concluded that 
this is simply not possible because the facilities to do this simply do 
not exist and ``are not being contemplated'' by other major West Coast 
ports. In Southern California sufficient capacity outside Port of LA/
Port of Long Beach ``does not exist and cannot be constructed''. 
According to POLA's own studies, the freight must come through these 2 
ports. Put bluntly the shippers need to be able to use these two ports 
more than the ports need the freight from the shippers.
    (See Attachment D: Sections 2.5.2.1 and 2.5.2.2 from ``Berths 136-
147 Container Terminal Draft Environmental Impact Statement (EIE) 
Environmental Impact Report EIR'', June 2007. Prepared by Port of Los 
Angeles, US Army Corps of Engineers and SAIC)
    ``But it will cost way too much. Consumers costs will go way up!'' 
We are indebted to the Maersk Corporation for proactively adopting the 
use of low Sulfur diesel fuel in ships serving their Pier 400 facility, 
demonstrating that the cost of this is not prohibitive. Additionally, 
Mr. Jesse Marquez with Coalition for a Safe Environment calculated that 
even if costs went up $100 per container (an increase of $200.000 in a 
2000 container ship) the net increase in cost to consumers for, say a 
pair of sneakers, would be 0.25 cents!
    Thus measures such as this legislation that may increase some costs 
to shippers but protect the health of Americans should be acceptable, 
enacted, and enforced.
    Thank you for your kind attention to my testimony.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Senator Boxer. Well, this if very difficult, to speak after 
your eloquence, Doctor. It is my job to make sure that your 
words are heard back in Washington. So, I can assure you they 
will be. Would you be willing to come back and testify?
    Dr. Miller. Yes, ma'am. I came here to speak for the people 
who have suffered this, and----
    Senator Boxer. I understand.
    Dr. Miller [continuing]. Of course I'd be willing to----
    Senator Boxer. Good.
    Dr. Miller [continuing]. Come to Washington.
    Senator Boxer. Well, I'm not going to ask questions of this 
panel. I'm going to make some closing remarks.
    I so appreciate everyone's message to me. The message has 
been delivered, by all of our witnesses, that air pollution at 
our ports is unacceptable, period. I pledge to you that I will 
deliver this message to my colleagues in Congress and to those 
in this administration, particularly at the Environmental 
Protection Agency. I will work with my staff very hard to pass 
our bill so that foreign ships--foreign ships--stop their 
deadly pollution.
    Our people expect us to work together through all levels of 
government to clean up our ports, cleanup our air. My staff and 
I will focus on this issue in the Senate until we get this job 
done.
    The doctor who last spoke, Dr. Miller, was so eloquent--
because when you see numbers on our chart, it's one thing, but 
when you hear the stories, it touches your heart and your soul.
    I want to thank all of your for your testimony. We have a 
moral responsibility to our children, and I, for one, intend to 
fulfill that responsibility. I want to thank you all.
    This hearing stands adjourned.
    [Whereupon, at 11:41 a.m., the hearing was adjourned.]
  

                                  <all>

</pre></body></html>
